<html>
<title> - EMERGENCY PREPAREDNESS IN THE NATION'S CAPITAL</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
             EMERGENCY PREPAREDNESS IN THE NATION'S CAPITAL
=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 2, 2001

                               __________

                           Serial No. 107-112

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform









                       U. S. GOVERNMENT PRINTING OFFICE
81-954                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          ------ ------
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

                Subcommittee on the District of Columbia

                CONSTANCE A. MORELLA, Maryland, Chairman
TODD RUSSELL PLATTS, Pennsylvania    ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia,               DC
------ ------                        DIANE E. WATSON, California
                                     ------ ------

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                     Russell Smith, Staff Director
                      Heea Vazirani-Fales, Counsel
                          Matthew Batt, Clerk
                      Jon Bouker, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 2, 2001.................................     1
Statement of:
    Cogbill, John, chairman, National Capital Planning 
      Commission; Joseph A. Moravec, Commissioner of the Public 
      Building Service, GSA; and Robert Malson, president, D.C. 
      Hospital Association.......................................   117
    Williams, Anthony, Mayor, District of Columbia; Linda Cropp, 
      chairman, District of Columbia City Council; Kenneth 
      Kasprisin, Assistant Director for Readiness, Response and 
      Recovery, FEMA; Arthur J. Lawrence, Assistant Surgeon 
      General/Acting Principal Deputy Assistant Secretary, 
      Department of Health and Human Services; Michael Rogers, 
      executive director, Metropolitan Washington Council of 
      Governments; and Charles Ramsey, chief, Metropolitan Police 
      Department.................................................    11
Letters, statements, etc., submitted for the record by:
    Cogbill, John, chairman, National Capital Planning 
      Commission, prepared statement of..........................   120
    Cropp, Linda, chairman, District of Columbia City Council, 
      prepared statement of......................................    11
    Kasprisin, Kenneth, Assistant Director for Readiness, 
      Response and Recovery, FEMA, prepared statement of.........    31
    Lawrence, Arthur J., Assistant Surgeon General/Acting 
      Principal Deputy Assistant Secretary, Department of Health 
      and Human Services, prepared statement of..................    44
    Malson, Robert, president, D.C. Hospital Association, 
      prepared statement of......................................   134
    Moravec, Joseph A., Commissioner of the Public Building 
      Service, GSA, prepared statement of........................   126
    Morella, Hon. Constance A., a Representative in Congress from 
      the State of Maryland, prepared statement of...............     4
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia:
        Letter dated October 31, 2001............................   150
        Prepared statement of....................................     9
    Ramsey, Charles, chief, Metropolitan Police Department, 
      prepared statement of......................................    88
    Rogers, Michael, executive director, Metropolitan Washington 
      Council of Governments, prepared statement of..............    62
    Williams, Anthony, Mayor, District of Columbia, prepared 
      statement of...............................................    17


             EMERGENCY PREPAREDNESS IN THE NATION'S CAPITAL

                              ----------                              


                        FRIDAY, NOVEMBER 2, 2001

                  House of Representatives,
          Subcommittee on the District of Columbia,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Constance A. 
Morella (chairman of the subcommittee) presiding.
    Present: Representatives Morella, Norton, and Watson.
    Staff present: Russell Smith, staff director; Heea 
Vazivani-Fales, counsel; Matthew Batt, legislative assistant; 
Robert White, communications director; Victoria Proctor and 
Howie Denis, professional staff members; Jon Bouker, minority 
counsel; and Earley Green, minority assistant clerk.
    Mrs. Morella. Good morning, the Subcommittee on the 
District of Columbia welcomes you to its eighth hearing of the 
107th Congress.
    We have been fortunate to assemble key stakeholders on the 
topic of emergency preparedness in the Nation's Capital. They 
have been very patient with us, in spite of one postponement, 
because we could not get into our offices, and various 
restrictions on the delivery of testimony.
    Today's hearing is extremely important and timely. We have 
also decided to have another hearing within a few weeks, that 
will focus entirely on the topic of the economic impact of the 
emergency situation in the District of Columbia.
    I must add that the witnesses for that topic were prepared 
to be with us today, but because of the issue of economic 
impact and its importance on our Nation's Capital and a very 
crowded agenda this morning, we believe that it deserves a 
separate hearing.
    So again, I welcome all of you here today, our witnesses 
and those of you who have come to hear the testimony of our 
distinguished witnesses.
    As we all know, the events of September 11th shook the 
world. But just as quickly as America was knocked down, she 
dusted herself off and stood tall. Americans soon began to talk 
about reconstructing our lost buildings, responding with force 
against the attackers, and redoubling our efforts to make 
certain such a travesty never happens again.
    Here in the Nation's Capital, on this subcommittee, our 
post-September 11th responsibility is to examine how well the 
District of Columbia and the region are prepared to handle any 
future emergencies.
    Going hand in hand with that is the matter of security 
coordination between the Federal and local governments, because 
I believe the Federal Government needs to do a much better job 
of communicating and consulting with local officials before 
taking actions, such as closing streets, that place an extra 
burden on the District of Columbia.
    These are not just academic concerns. The introduction of 
anthrax as a weapon has illustrated a need for comprehensive 
regional and inter-governmental cooperation.
    Anthrax spores have been found in more than a dozen 
buildings in the District of Columbia and the surrounding area, 
including congressional offices and the Brentwood Postal 
Facility, where two of our Postal workers died after 
contracting the disease.
    The Center for Disease Control and Prevention and the D.C. 
Department of Health are among the agencies that have responded 
to this bio-terrorism, and I know some have already raised 
questions about whether their combined responses were 
adequately coordinated.
    Looking to the future, I am interested in learning how our 
network of hospitals are prepared to handle the outbreak of an 
infectious disease such as smallpox. Is there a plan to share 
resources and costs, to quarantine patients? What is the surge 
capacity of our hospitals?
    The public needs to be assured that the various agencies of 
the Government are working together to protect the public 
safety. Mis-communication, confusion, and a lack of 
coordination are unnecessary hurdles to overcome, when our 
focus must be on public health and public safety. The 
Government must speak to the public with one clear 
knowledgeable voice.
    I want to return our attention to the events of September 
11th. Although the city of Washington, DC, was spared a direct 
hit because of the brave actions of the passengers and the crew 
on United Flight 93, we did see 189 of our friends and 
neighbors killed at the Pentagon.
    Subsequently, there were false reports of explosions or car 
bombs in various places in the Capital. Rumors abounded that 
Metro was closed. The evacuation of Capital Hill office 
buildings was slipshod, with employees in some offices never 
receiving definite word that they could go home. In short, D.C. 
was gripped with confusion.
    The Emergency Broadcast System, designed precisely for 
these types of events, was never activated, to my knowledge, at 
least. Fire fighters, paramedics, police, and other emergency 
personnel responded quickly to the Pentagon, because they 
undergo constant training in mutual aid response.
    However, there was a lack of high level coordination across 
jurisdictional lines. In fact, it was not until 6 p.m. on the 
night of September 11th, that the chief administrative 
officers, police chiefs and other top officials from across the 
region, talked to each other on a conference call. By that 
time, 9 hours had passed, and most of Washington was back at 
home, searching for news on their television sets.
    It is evident that there was no, and there is no, regional 
emergency plan, at least not one that can be counted on. A plan 
that exists only on paper is not enough. Employees must undergo 
training and testing so they will know what to do when the 
moment of truth arrives.
    When it snows or even when there is a threat of snow, 
regional leaders talk to each other about how they are going to 
proceed, whether Government and schools will be closed. The 
plan goes into detail about emergency routes, getting 
information to the public, and use of the Washington area 
warning system.
    The region has a snow plan, but we do not have a 
comprehensive coordinated plan to respond to emergencies, such 
as September 11th.
    I find that astonishing and worrisome, and I hope to hear 
from our witnesses today that they have taken concrete steps to 
correct this glaring weakness.
    As the seat of the Federal Government, Washington must be 
the most prepared city and region, in the event of a terrorist 
attack or other emergency. We are an obvious target. We must be 
prepared to work together.
    If the Federal Government decides to send its employees 
home in the middle of the day, officials in the District, 
Maryland, and Virginia must know what is happening, so they can 
prepare for the rush of commuters.
    The Federal Government cannot make decisions in a vacuum. 
It is the largest employer in the region, and its actions have 
consequences.
    Finally, this hearing was, as I mentioned earlier, 
originally going to examine the economic impact of the 
terrorist attacks on the District and the region. Congresswoman 
Norton and I decided to postpone that part of the hearing until 
another day soon, given the already large scope of this 
hearing.
    But I do want to state for the record that we, in Congress, 
do recognize that the financial picture for the District, at 
least in the short term, is not encouraging. The tourism and 
hospitality industries, which are so vital to the city's 
economy, face severe weakness. Thousands of jobs and small 
businesses are in jeopardy, and we are going to continue to 
closely monitor this situation.
    So I thank you for being here this morning. I would now 
like to yield and recognize the ranking member of this 
Subcommittee on the District of Columbia, who has obviously 
done such a great job, Congresswoman Norton, for an opening 
statement.
    [The prepared statement of Hon. Constance A. Morella 
follows:]
[GRAPHIC] [TIFF OMITTED] 81954.001

[GRAPHIC] [TIFF OMITTED] 81954.002

    Ms. Norton. Thank you very much, Mrs. Morella. May I say in 
advance that I regret that I am going to have to leave this 
hearing for a few minutes around 10:30, because Mr. Gephardt is 
having a press conference, of which I must be a part, on an 
amendment to the Victim's Compensation Fund, that we are 
announcing at 10:30.
    There is a Victim's Compensation Fund for those lost as a 
result of September 11th and, of course, we had many D.C. 
residents lost at the Pentagon. We had three school children 
and three teachers lost.
    But this fund does not cover people who have been lost out 
of the anthrax deaths. That is what is being announced this 
morning, and I simply have to go and come back. I go with my 
apologizes.
    I very much appreciate the Chair's willingness to schedule 
today's hearing. The September 11th attack raised more new and 
more serious issues for the District of Columbia than for any 
jurisdiction, except the U.S. Government, itself.
    The District has had to contend with escalated local 
responsibilities to protect its almost 600,000 residents, and 
unprecedented national responsibilities to help protect the 
Federal presence. But for both, this city is the first 
responder.
    To add to the challenge, the city was uniquely handicapped 
in recovering from the attack, when National Airport was closed 
for 3 weeks, the only airport in the country to experience such 
a shut-down. By Thanksgiving, only 55 percent of National's 
planes will be flying.
    At this hearing, we originally intended comprehensively to 
address the spectrum of September 11th issues facing both the 
D.C. government and our business sector, particularly 
hospitality. The cascading effects on tourism and other D.C. 
businesses of the shutdown of the airport, the drought of 
tourists, and the anthrax scare have been all but lost, as 
events have rolled over one another since September 11th.
    I very much appreciate that because of the length of the 
comprehensive hearing planned for today, the Chair has agreed 
to a special hearing, devoted exclusively to our private 
business sector and to the effect on workers who, along with 
the D.C. government, have absorbed the brunt of the attack.
    Tourism's spectacular growth and ability to fuel even 
unrelated sectors and commerce in the District is one of the 
great stories to emerge from the ashes of the 1990's.
    However, D.C.'s workers and businesses have been the unsung 
heros of September 11th. They deserve to be featured in a 
hearing of their own, and the Chair has promised to schedule a 
hearing forthwith. I very much appreciate that.
    Today, we look primarily at D.C. government preparedness, 
and at the effects of the September 11th business slowdown on 
the D.C. budget, and on the District's economy.
    Let me say that I had staff pull the unemployment figures, 
just released this morning. They are extremely discouraging. 
What they tell us is that D.C. must be focused on nothing, 
nothing like it is focused now on its economy, on keeping its 
government viable.
    The unemployment figures for local jurisdictions are going 
to be issued only November 16th. If we look at where we were, 
on September 2001, we were at 6 percent unemployment, 
spectacular for us, and we were at 6 percent a year ago in 
September. That is what we needed.
    I do not know where we will be. But the analysts say that 
they expected a jump in the unemployment, but they never 
expected a jump, and this is what the analysts say, in the 
national unemployment figure of the kind they have now.
    Our unemployment rate is 5.4 percent in October. It is the 
biggest 1 month jump in more than 21 years. To quote from this 
Post article, ``Economists fear that continued fallout from the 
attacks, new worries about anthrax in the mail, plunging 
consumer confidence and rising unemployment in the months ahead 
will keep consumers tight-fisted, further weakening the 
economy.''
    This is where the health of the District of Columbia lies 
in the coming months, and this is where we must be focused, and 
on other issues.
    We are also concerned to know more about the level of 
cooperation between the Federal and D.C. governments to cope 
with post-attack and preparedness issues.
    To its credit, the House Economic Development, Public 
Buildings, and Emergency Management Subcommittee, on which I 
serve, has already agree to my amendment that makes the 
District a full partner in Homeland preparedness, coordination, 
and implementation.
    However, the bill is not yet on the floor, and recent 
actions by Federal and congressional personnel give reason for 
continuing concern. That concern deepened when, as I understand 
it, the Sergeant at Arms and the Capital Police declined the 
Chair's invitation to testify here today. That is exactly the 
wrong way to protect the Nation's Capital.
    Having declined to appear publicly, I shall ask each to 
come to my office for a meeting to achieve greater coordination 
on street closures, barricades and other actions, that affect 
not only the Federal presence, but also the people who live and 
work here.
    The District already has demonstrated that it can handle an 
unprecedented health crisis and bring it under control. Not 
only the city, but the country, is indebted to Mayor Williams, 
Dr. Walks, and their team, for the calm and informed way they 
have managed and quieted the anthrax crisis, and established a 
workable precedent that will benefit other jurisdictions.
    Today, we may hear a progress report on anthrax, but given 
the saturation of the news with information and anthrax 
updates, that is the one issue on which Congress has been 
informed since the attack.
    Notwithstanding the tragic anthrax deaths, anthrax remains 
a disease that is hard to get and easy to cure, if caught in 
time. The District will have a more difficult time retaining 
its own financial health, and calming an unaddressed economic 
crisis, as thousands of businesses hang on, or are out of 
business, and as thousands more workers are furloughed or laid 
off.
    What must concern us preeminently is keeping September 11th 
from taking down the economy of the District of Columbia. We 
have included $16 million in the 2002 D.C. Appropriation for 
emergency preparedness.
    We have also been able to get the District raised from a 
mere $10 million, in the President's pending $20 billion 
supplemental, to $25 million; still a small fraction of the 
city's request and needs.
    However, our discussions with the House and Senate 
appropriators lead us to believe that we will be able to 
significantly expand this amount. Yet, it is not likely that we 
will replace all of the anticipated $200 million in lost tax 
receipts to the District, not to mention the $750 million in 
hospitality and travel losses the District estimates.
    I hope that at the very least, Congress will not deny the 
District the full $250 million it needs to be a fully prepared 
first responder. I certainly do not intend to go quietly into 
the night, while much is expected of the District and little is 
given.
    I look forward to hearing more concerning the challenges 
and the appropriate remedies from today's witnesses. Again, I 
very much appreciate the work of the Chair and her staff in 
calling this hearing.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]
[GRAPHIC] [TIFF OMITTED] 81954.003

[GRAPHIC] [TIFF OMITTED] 81954.004

    Mrs. Morella. Thank you, Congresswoman Norton.
    Now before we hear the testimony, it is the plan and the 
policy of this committee and all its subcommittees to swear in 
all our witnesses. So I could ask you to please stand and raise 
your right hand. I would also like to ask Dr. Segal and Mr. 
LePorte, since we may be calling on them, and I understand they 
are here also, to stand and to be sworn in.
    [Witnesses sworn.]
    Mrs. Morella. Everybody has responded affirmatively and the 
record will signify such.
    We will start off now and we will proceed in the order that 
is listed with, first of all, our great mayor, the Honorable 
Anthony Williams.

 STATEMENTS OF ANTHONY WILLIAMS, MAYOR, DISTRICT OF COLUMBIA; 
   LINDA CROPP, CHAIRMAN, DISTRICT OF COLUMBIA CITY COUNCIL; 
 KENNETH KASPRISIN, ASSISTANT DIRECTOR FOR READINESS, RESPONSE 
   AND RECOVERY, FEMA; ARTHUR J. LAWRENCE, ASSISTANT SURGEON 
GENERAL/ACTING PRINCIPAL DEPUTY ASSISTANT SECRETARY, DEPARTMENT 
    OF HEALTH AND HUMAN SERVICES; MICHAEL ROGERS, EXECUTIVE 
 DIRECTOR, METROPOLITAN WASHINGTON COUNCIL OF GOVERNMENTS; AND 
     CHARLES RAMSEY, CHIEF, METROPOLITAN POLICE DEPARTMENT

    Mayor Williams. Chairman Morella, Congresswoman Norton, 
Congresswoman Watson, welcome to the proceedings, and thank you 
all for being here to discuss the preparedness.
    Would you like me to hold for the Congresswoman?
    Mrs. Morella. That would be very kind of you.
    Congresswoman Watson, we are just so pleased with you on 
the committee. Thank you very much. I recognize we are not in 
session, so it is a tremendous sacrifice and commitment for 
other Members to appear on a Friday when we do not have votes. 
I would love to recognize you for any opening statement you may 
have.
    Ms. Watson. Thank you very much, Congresswoman Morella.
    I just wanted to echo the remarks coming from the 
Congresswoman. I feel that we need to be sensitive to this 
District in which we operate.
    Sometimes, the politics get in the way. I am hoping that 
all of you representing the District will be able to bring out 
the facts that will compel us to provide the resources that are 
going to be so necessary for us to do policy here in this area.
    Under the circumstances under which we are all living, it 
makes it even more and more important that we provide you with 
what is needed.
    Before coming here, I was talking to my staff, and I know 
you have concerns about the streets that are blocked off, and 
you wonder how you balance between safety and the precautions 
you take, and the people's free flow.
    I hope that we can think through some of these areas with 
Congresswoman Norton and the rest of the members, and with all 
of you. It is going to take us awhile, but I hope that we can 
come up with policies that would allow our freedoms to 
continue, but being alert and cautious, allow us to reduce the 
risk.
    I just had a hearing in Los Angeles attended by seven 
Members of Congress on our preparedness in L.A. County and 
southern California. I am very proud to say that because we are 
so used to natural disasters, as we have earthquakes every day 
and we have fires and other kinds, that we are prepared.
    But the problem, and probably the problem here, is that we 
have not connected the dots. So our problem is how do we 
coordinate and how do we communicate?
    I am hoping that as you give your testimony, we can kind of 
focus on how we coordinate your efforts, how we communicate 
them to the public, and how you communicate to the policymaking 
body, so we then, in turn, can supply you with resources you 
need to be able to protect your citizens.
    Thank you so very much.
    Mrs. Morella. That was well stated, Congresswoman Watson.
    Again, I thank you, Mayor Williams, for the courtesy of 
allowing her opening statement.
    Mayor Williams. Absolutely.
    Mrs. Morella. We recognize you, sir.
    Mayor Williams. Madam Chair, for the purposes of the 
records, I have submitted my entire statement. I have 
abbreviated it, both in light of the limited amount of time for 
any one witness, and given the scope of the hearing.
    I also will focus on emergency preparedness, as opposed to 
the testimony that was prepared that dealt with economic 
recovery, which I understand is a subject of a later hearing. I 
thank you for holding that hearing, as well as this one.
    Mrs. Morella. Without objection, the statement you have 
submitted will be in the record.
    Mayor Williams. Thank you, and like all of you, and like 
most Americans, the leadership of the District never 
anticipated the evil of using a passenger airliner as a weapon 
of mass destruction.
    For us, like most Americans, the cowardice of the terrorist 
attacks on September 11th galvanized our resolve to out-think, 
out-smart, and out-plan any terrorism that targets the District 
of Columbia.
    Immediately following September 11th, I convened a task 
force of senior District officials to review and improve the 
District's existing emergency operations plan. I gave the Task 
Force to primary imperatives: No. 1, enhance critical linkages 
and operational relationships with our Federal, state, and 
regional partners; and No. 2, develop a comprehensive emergency 
management program capability.
    As you know, there already exists a comprehensive Federal 
Response Plan. My task force established working groups in each 
of the critical emergency support functions to mirror the 
Federal Response Plan including: a transportation group to 
review current evacuations plans; a communications group tasked 
with planning and implementing the District's emergency 
communications needs; a law enforcement group tasked with 
ensuring that public order is maintained during a crisis; and a 
command control group to oversee and coordinate these working 
groups.
    To ensure cross-jurisdictional coordination and effective 
resource sharing, these working groups include representatives 
from Federal agencies, as well as officials from surrounding 
jurisdictions in Maryland and Virginia.
    We are particularly grateful for the leadership provided by 
Michael Lowder from the Federal Emergency Management Agency, 
who has brought resources and representation of the National 
Capital Response Team to the work of the District's task force. 
The National Capital Response Team includes FEMA, the 
Environmental Protection Agency, the Department of Health and 
Human Services, and the U.S. Army Corps of Engineers.
    We now have established readiness levels that mirror the 
readiness levels of the Federal Government. Should disaster 
strikes tomorrow, God forbid, we have the communications 
systems in place to provide immediate coordination.
    We have comprehensive phone lists and call trees with 
satellite phone numbers and text pagers, and pocket guides that 
we all carry around that outline every organization's 
responsibility in key response areas.
    We have created notification processes for all types of 
incidents and emergencies, ranging from power outages to 
chemical attacks. We have planned for where all activities will 
be staged, and how we will move people and emergency equipment 
in and out of town. We have outlined evacuation routes. We have 
developed the fundamental architecture of an effective 
emergency response.
    The anthrax contaminations of the last few weeks tested our 
emergency preparation and response plans. We are coordinating 
closely with our Federal partners in the Centers for Disease 
Control to respond to the needs of the Postal Service and other 
mail handling operations.
    While I am satisfied that we are enhancing our 
organizational capability to respond to emergencies, I am here 
to tell you that we are not sufficiently resourced.
    We do not have the sufficient resources to respond to the 
full range of disasters we could face, to face responsibilities 
in an order of magnitude and scope, and I will give you an 
example, similar in scope to the city of New York, which has 
40,000 police officers; to meet similar responsibilities, in 
terms of scope and magnitude.
    Certainly not in population but, again, in terms of 
potential targets, we have 4,000 policemen. So it is 
extraordinarily important that we have coordination.
    Although the District's emergency preparedness is meeting 
the current needs the city, it has taken its toll. Over the 
past 2 weeks, our fire and emergency medical services 
department has responded to between 30 and 70 hazardous 
material [hazmat] calls per day.
    The MPD has been on a heightened state of alert since 
September 11th. I am not sure how we can get to a higher state, 
which has meant greater numbers of officers deployed, using 
more overtime dollars.
    In fact, we estimate that the additional personnel costs 
alone for police for the next 6 months, in the aftermath of 
September 11th, will be over $11 million.
    Let me assure you that our citizens notice the diversion of 
officers away from their neighborhoods, and it has begun to 
erode the overwhelmingly positive feeling about reduced crime 
in our city.
    I am here to tell you that the men and women of the 
District's public safety units are doing what needs to be done, 
but we are depleting our resources.
    I will give you an example. Our homicide rate in 
Washington, DC, was on pace to be down 30 percent over the last 
year. I was criticized because it was not down in some areas 
more than other areas.
    But what we often lose sight of is the good news. The good 
news is that homicide was on a trend to be down 30 percent. 
That is a huge decrease, following decreases over the last 
couple of years already.
    Since September 11th, it is on pace to be down now only 15 
percent. So we have lost 15 percent traction, because of the 
extraordinary responsibilities we are facing as a Federal 
international center.
    We are running our hazmat response on unbudgeted overtime 
dollars. If we must sustain the current operational tempo over 
the long haul, we are determined to develop flexibility and 
depth far beyond what anyone has done before, because, again, 
we have unique responsibilities in this city. But this is not 
going to be fast; it is not going to be easy; and it is not 
going to be without costs. Together with our regional and 
Federal partners, and with the support of Congress, I am 
committed to seeing that our city meets and exceeds the newly 
created national standards for emergency preparedness 
established by FEMA, the National Emergency Management 
Association, and International Association of Emergency 
Management.
    Now we have submitted a request for special appropriations 
in the amount of $1 billion, which includes $250 million for 
emergency preparedness. My testimony includes all the different 
areas, both in terms of resources and equipment, as well as 
costs reimbursement. In addition to investing in the personnel 
that we depend on in an emergency, this request will allow us 
to better serve the people who live and work in the District.
    To give you an example, one of the critical issues in the 
city on September 11th was traffic control. With the mass 
exodus of so many Federal employees, and many were mothers and 
fathers concerned about the children, the streets downtown 
initially became gridlocked.
    This request includes equipment that will enable us to 
closely monitor traffic patterns and quickly implement new 
patterns and street light timings, to ensure a safe and orderly 
evacuation of the city.
    As Peter LePorte or Margaret Kellems, my deputy mayor for 
public safety, or the chief will tell you, we have got to do 
two things, actually. We have got to ensure an orderly 
evacuation; and while we are doing that, we have to also manage 
the same way Montgomery County would manage or Fairfax County 
or Prince George's.
    We have to also manage for the access and accommodation for 
our emergency vehicles to get to an accident. So you have to 
plan two route structures or networks.
    This investment that we are talking about in the National 
Capital, and actually in the National Capital Region, will help 
strengthen our preparedness to the levels that the citizens of 
the District expect, to the levels that the citizens of this 
region expect and, indeed, to the levels that the American 
people should expect.
    Our Nation's Capital will always be a higher risk 
environment than most cities, and responding to a major 
emergency, as you have said, Madam Chair and the other members 
of the committee have mentioned, requires coordination and 
cooperation among all of our local jurisdictions.
    One thing I have learned, it is going to require 
coordination not only between the city and Maryland and 
Virginia States, but it is going to require cooperation between 
the city and the surrounding counties.
    I am pleased that Michael Rogers from COG is here today, as 
well as the city and our private industry, which we often 
sometimes fail to realize, and which is vitally important.
    I want to mention here before the committee the pride that 
I have for another kind of mutual aid and coordination. I am 
proud of our Engine 23, that was one of the first responders, 
in support of Arlington County at the Pentagon on September 
11th.
    I know that we can depend on a similar level of support 
from the governments in northern Virginia and the surrounding 
Maryland counties for mutual aid with fire fighting, to early 
detection of symptoms in hospitals, to evacuation planning.
    We are working together to prepare, prevent, and when 
necessary, respond. It is accomplished only through regional 
cooperation, the kind of regional cooperation that we have 
seen.
    I was pleased that one of the first things I did as Mayor 
was to initiate, and Michael has been a part of this and the 
Board of Trade has been a part of this, a regular series of 
meetings with what we call the ``Big Four'': the county 
executives of Montgomery, Fairfax, Prince George's and the 
District, recognizing that we are all joined in all these 
activities together.
    If we are to be successful in safeguarding the Capital, it 
will require effective communications between the Federal 
Government and the District.
    I am pleased that earlier this week, I had a productive 
meeting with Governor Ridge, who is personally committed to 
working with me toward additional improvements in District/ 
Federal cooperation.
    I strongly urge the Congress to give positive consideration 
to Congresswoman Norton's legislation that would 
institutionalize a linkage between the District and the Office 
of Homeland Security on all levels of domestic preparedness.
    One of the things that we talked about is the need in the 
area of better planning and better preparation for the District 
to be able to meet on some kind of basis with the Homeland 
Security folks, and have in advance an understanding of what 
the plans are, for all the Federal departments, for the U.S. 
Capital, and what they plan to undertake in various levels of 
alert.
    This is so we know ahead of time that if we go to alert 
status or whatever, you know, Departments 1, 2 and 3 are going 
to do the following things. Then we can, up front, discuss 
these issues of balancing an open city with a safe city, and 
not be diverted into every instance when there is an alert, 
discussing whether we are going to have this street closed or 
that street closed or these parking spaces open or those 
parking spaces open.
    We know now that we are in a new environment. This is the 
kind of planning that is called for, and I hope that the 
legislation that Congresswoman Norton has introduced and I hope 
that the meetings that we have had with the White House, will 
lead to that kind of effort. I am confident that Governor Ridge 
is committed to doing that.
    I would also like to ask the support of the committee as a 
wrap up for another proposal, that would give the Mayor of the 
District of Columbia the same authority that the Governors of 
the 50 States and the territories have; and certainly that 
Governor Gilmore and Governor Glendening have. That is to have 
the authority to mobilize our National Guard.
    Currently, in an emergency unique to the District, I go to 
Major General Freeman of the D.C. National Guard who, in turn, 
goes to the Secretary of the Army, and then it works up the 
channel to the President.
    I want everybody to understand, I appreciate President 
Bush's cooperation and partnership with the District in a 
number of different ways; whether they are economic development 
or in emergency planning. But I am sure the President has more 
important things to do in an emergency of national scope and 
priority, than to sit here and personally check on whether the 
District needs to bring out National Guard. I would urge the 
committee's attention to that bill, as well as support for that 
bill.
    I would again close by thanking the committee for its 
oversight and diligence in a vitally important matter for not 
only our Nation's Capital, not only our region, but for our 
country.
    [The prepared statement of Mayor Williams follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.032
    
    [GRAPHIC] [TIFF OMITTED] 81954.033
    
    [GRAPHIC] [TIFF OMITTED] 81954.034
    
    [GRAPHIC] [TIFF OMITTED] 81954.035
    
    [GRAPHIC] [TIFF OMITTED] 81954.036
    
    [GRAPHIC] [TIFF OMITTED] 81954.037
    
    [GRAPHIC] [TIFF OMITTED] 81954.038
    
    [GRAPHIC] [TIFF OMITTED] 81954.039
    
    [GRAPHIC] [TIFF OMITTED] 81954.040
    
    [GRAPHIC] [TIFF OMITTED] 81954.041
    
    [GRAPHIC] [TIFF OMITTED] 81954.042
    
    Mrs. Morella. Thank you, Mayor Williams, for your 
testimony. We look forward to a discussion and questioning 
after we hear from our first panel.
    Chair of the Council, Linda Cropp, thank you for being here 
with us. We look forward to hearing your comments.
    Ms. Cropp. Thank you very much, Congresswoman Morella, 
Congresswoman Watson. It is indeed a pleasure for me to be here 
today and testify before the subcommittee. Thank you very much 
for holding this hearing.
    The District of Columbia enjoys many of the benefits, but 
we also bear several unique costs, because of its status in the 
Nation's Capital.
    I am not going to read all of my testimony. Quite a bit of 
it deals with the economic development portion, so I will omit 
that, and concur with a lot of what the Mayor said. I will 
submit my entire testimony for the record.
    While we, in the District of Columbia, are part of the 
Nation's Capital, with regard to the effects of the devastating 
terrorist attack of September 11th and the continuing 
aftermath, let me just review a few of the costs that are being 
borne by the District government and its citizens, and why we 
need the Federal assistance and their dollars to assist us, 
both directly with these costs and also to help with our 
economic survival, so that the District has sufficient revenue 
to pay for the vital services that we provide to the Federal 
Government.
    As you know, it is primarily local resources that have been 
used to protect the public safety and the public health of not 
only the 600,000 people who live within the District; and not 
only the 2 million people, mostly from Maryland and Virginia, 
who work here every day; but also the entire Federal 
establishment, which is headquartered within the Nation's 
Capital.
    The reality is that the local governments everywhere are 
the first responders in this new war against terrorism on our 
homeland. It has been local police officers, local fire 
fighters, local emergency medical technicians, local emergency 
management directors, and local public health officials, who 
have been the first responders to the attacks and threats 
against America.
    Here in the Nation's Capital, which has been and will 
continue to be one of the primary targets for terrorism, it has 
been locally raised revenue that has been paying, in large 
amounts, for the safety and health of our Federal Government, 
its work force, and our visitors.
    While our fervent patriotism and responsibility demands 
that we protect our Federal Government, our fervor and 
responsibility is not diminished to protect our local residents 
and businesses.
    Therefore, Congress and the President must recognize that 
when, for example, our police force is deployed from our 
neighborhoods, to protect Federal facilities and Federal 
officials more than what was previously normal, our local 
residents and businesses become less protected than previously.
    When demand by the Federal Government for the District 
first responders is greater than can be paid for by locally 
raised revenue, the Federal Government has a special 
responsibility to help address these financial needs.
    Other cities have States that step up to the plate, and 
other cities do not have the same level of Federal presence as 
we do.
    As Mayor Williams has indicated, the District is expected 
to lose $750 million in just the first 6 months following 
September 11th. At least 10,000 small businesses, the engines 
that generate economic growth, are at risk.
    As a result of this economic disaster, the District itself 
is currently projected to lose $200 million in tax revenue over 
the next year. Moreover, the cost to District agencies to 
enhance emergency preparedness is $250 million. This amount, as 
I stated, does not include the substantial cost of increased 
protection to our Federal establishment.
    To quantify our post-September 11th economic loss in human 
terms, the Mayor has submitted documentation as to why we need 
the $766 million in economic recovery assistance.
    Let me say that this was one of those joint efforts by the 
executive branch and the legislative branch. The Council of the 
District of Columbia, its public services, public works, 
government operations, judiciary, finance, and revenue 
committees had joint committees working with the executive 
branch, so that we could really look at our true needs, scrub 
the numbers, and get everyone involved in a very thoughtful and 
comprehensive process, to very clearly define what our needs 
are.
    So the document that is being presented by the Mayor is a 
joint document by the executive and legislative branch. Let me 
say that both branches of Government also extended their hands 
out into the community, to also get additional information and 
input on that.
    As the Mayor stated, it has not gone unnoticed by our 
citizens, the people whom we represent every day, that during 
this national crisis, in some PSAs, the local police units in 
our community, that there may have been one or two police 
officers almost on duty, where the police were diverted to 
Federal facilities.
    My e-mail was almost jammed with outraged citizens, with 
regard to the fact that they felt totally unprotected, because 
our local resources had been drained and diverted elsewhere.
    We need to develop a process where our citizens are not 
left vulnerable, while at the same time, as stated earlier, we 
protect the Federal Government that we all love so very much.
    You are quite aware that the District is recently getting 
its legs back, our strength back, from the financial 
instability that we have had in the past. The reality is that 
during our period of instability with regard to our finances, 
we had deferred maintenance in so many areas with regard to our 
public safety units.
    We did not purchase the equipment during the time when we 
were just trying to come back from being in debt. So finally, 
when we saw light at the end of the tunnel and it was not a 
train, we finally could start purchasing some of the equipment 
that we needed.
    But rest assured, our police department, our fire 
department, our other emergency teams are not equipped at the 
level that we may have to face with future attacks. We are 
equipped to just about handle the day-to-day operations of the 
city and the needs of the city. We were starting to build the 
budget back up for them to do that.
    If we are going to continue to be on the high alert that 
will be mandated by what the city and this Nation is facing, we 
need to look very carefully at how we are equipped; our fire 
department, our police department, and our other first 
responders.
    Let me again reiterate that these individuals are the 
individuals who not only protect the 600,000 people who make 
Washington, DC, their home, but they are also the protectors 
for the Federal presence in the District of Columbia, and the 2 
million people who come here every day to work.
    The amounts that the Mayor had detailed fall short of the 
city's need. The Council joins with Mayor in asking for your 
support and advocacy in obtaining the District's full request 
of $1 billion in emergency preparedness for economic assistance 
funding.
    This is not just for the District of Columbia. Once again, 
this is also for the Federal presence here in the District of 
Columbia. We need to look at the funding for the District in a 
very unique way, for it is also the fire department for the 
Federal Government, the police department for the Federal 
Government, the emergency response team for the Federal 
Government.
    So we need to have that assistance much more than any other 
place; and in this instance, the Federal Government must act as 
the District's state.
    These funds are crucial to the District's survival and to 
the Federal Government needs, as emergencies come up. The 
specific purposes of each of these dollars are detailed in 
documents provided by the Mayor to you.
    We once again join with the Mayor in urging Congress and 
the White House to support Congresswoman Norton's legislation 
to provide an annual funding source for the District of 
Columbia; one that adequately compensates us for the annual 
cost of services provided and revenue denied as a result of the 
Federal presence, and the unique congressional prohibition on 
taxing the income of two-thirds of the income earned in the 
District of Columbia.
    We also join with the Mayor in asking support for the bill 
that will give the Mayor the ability to call out the National 
Guard in times of an emergency, just as other jurisdictions and 
Governors have.
    Once again, we thank you so very much for your concern and 
your interest in this very crucial matter that impacts all of 
us directly.
    Thank you for this opportunity to testify today.
    [The prepared statement of Ms. Cropp follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.005
    
    [GRAPHIC] [TIFF OMITTED] 81954.006
    
    [GRAPHIC] [TIFF OMITTED] 81954.007
    
    [GRAPHIC] [TIFF OMITTED] 81954.008
    
    [GRAPHIC] [TIFF OMITTED] 81954.009
    
    [GRAPHIC] [TIFF OMITTED] 81954.010
    
    [GRAPHIC] [TIFF OMITTED] 81954.011
    
    [GRAPHIC] [TIFF OMITTED] 81954.012
    
    [GRAPHIC] [TIFF OMITTED] 81954.013
    
    [GRAPHIC] [TIFF OMITTED] 81954.014
    
    Ms. Watson. Congresswoman Morella.
    Mrs. Morella. Yes, Congresswoman Watson.
    Ms. Watson. This is a question to the Chair to see if it 
would be possible for us to recommend to Appropriations that 
during emergencies, that the Mayor and the Council have the 
authority to bypass and to make their requests known for the 
resources.
    I do not know why you have to go through all that you do in 
an emergency. I think if we can look at it in some way, so the 
resources can be obtained immediately, and then afterwards, we 
could work it out. I understand that your process is that you 
have to go to Appropriations, if it is supplemental to your 
budget?
    Mayor Williams. Congresswoman Watson, I think Congresswoman 
Norton, in conjunction with the committee, has proposed a plan 
whereby an account would be set up, that the District could 
draw on, to meet these extraordinary national responsibilities, 
ranging from the predictable, like inaugurations and big 
protests and activities, to the unpredictable.
    Ms. Watson. Yes, that is a provision in her proposal.
    Mayor Williams. Well, it is something that has been 
proposed. I think I speak for the city, that we strongly 
support it.
    Ms. Watson. Well, let me suggest that if it is not in her 
proposal, maybe this is something the committee would want to 
have.
    Mrs. Morella. We can look into it, but we do have 
legislation that has been introduced.
    Ms. Watson. All right.
    Mrs. Morella. I am a sponsor with Congresswoman Norton, 
dealing will emergencies, the exigencies over which you have no 
control; whether they are emergencies, inauguration, or 
whatever the special burden is, it falls on the District.
    I am glad you brought that up. With your consent also, we 
will go to the rest of the panel, and then we will fire away at 
questions, thank you.
    Ms. Watson. I just have one more question, based on the 
two.
    Mrs. Morella. You are going to use up the time that I am 
going to give you later, though. [Laughter.]
    Ms. Watson. Just really quickly, in your presentations, you 
might talk about how you coordinate with the Federal law 
enforcement officers that service here.
    Mrs. Morella. Can you let her answer that later on? Because 
that is a very good question for all of them as to how are we 
really coordinating.
    Ms. Watson. Yes.
    Mrs. Morella. Thank you, and I am now going to recognize 
Kenneth Kasprisin, who is the Assistant Director for Readiness, 
Response, and Recovery at FEMA. Thank you for being with us.
    Mr. Kasprisin. Good morning, Madam Chairwoman and members 
of the subcommittee. I am honored to be here today.
    When the hijacked American Airlines flight crashed into the 
Pentagon on September 11th, it triggered a range of actions 
across the region by Federal, State, local, and private 
agencies.
    The challenge we faced then and continue to face today lies 
in effectively coordinating the multi-jurisdictional efforts, 
so that all the individual efforts are synchronized into a 
single, cohesive emergency response.
    The September 11th events caused a quick escalation in 
emergency response at all levels, from legal to the Federal. 
Governor Gilmore immediately requested and the President 
declared a major disaster under the Stafford Act. FEMA then 
implemented the Federal Response Plan to manage and coordinate 
the Federal assistance.
    The Federal Response Plan is designed to support, not 
supplant, State and local efforts. As the lead Federal agency, 
FEMA manages the allocation of Federal resources to support 
these disaster responses.
    Other Federal agencies are, in many cases, able to meet a 
variety of the requirements under their own authorities and 
their own funding; if not, FEMA issues a mission assignment, or 
reimbursable work order, to cover the cost.
    The Federal Response Plan that we have works, and it works 
well, because it is simple and it is understood. Over the past 
5 years, we have implemented the plan over 300 times.
    As you know, the Metropolitan Council of Governments 
includes all the National Capital Region jurisdictions, plus 
other key regional players. The Council helped develop a number 
of regional plans, including the planning guidance for the 
public health system response to a bio-terrorism event and a 
unified regional snow emergency plan.
    The snow plan provides a coordinated decisionmaking process 
among local jurisdictions for early dismissal, emergency 
routing, and snow-related closures across the region.
    Decisions and coordination under the plan are accomplished 
through a process that includes teleconferences, public 
information dissemination, and the Washington area warning 
system. We can build on that snow plan model to help coordinate 
aspects that we would face in the event of another attack.
    The District of Columbia lies at the heart of the region, 
and has its own Emergency Response Plan. As the Mayor 
indicated, the D.C. Emergency Management Agency recently 
updated their plan to mirror the Federal Response Plan.
    That effort was initiated as a result of lessons learned 
both from the August flooding and the September 11th events. 
Mr. Mayor, thank you for acknowledging Mike Lowder's efforts in 
that regard.
    Over the past 7 weeks, we have been working even more 
closely with our national, regional, and local partners, to 
enhance FEMA's ability to respond to any future event.
    To that end, and to shorten Federal response times in a 
weapons of mass destruction event, in the National Capital 
Region, we have [1] developed the National Capital Region 
contingency plan; and [2] formed an emergency response team, 
dedicated to the National Capital Region.
    As part of this effort, we have established an initial 
operating facility that is ready to begin operations 
immediately to coordinate any necessary response activities. 
The facility will be staffed by personnel who can rapidly 
respond.
    In addition, we have pre-positioned various resources at 
the facility, including communications equipment, which will 
enable us to begin operations much more quickly and more 
effectively.
    At the same time, we have been working closely with the 
Domestic Preparedness Task Force established by Mayor Williams, 
as well as with the Emergency Planning Task Force, established 
by the Council of Governments. We will continue to do so, to 
ensure that we maximize the expertise at all levels of 
Government.
    Madam Chairwoman, you convened this hearing to discuss 
emergency preparedness in the National Capital Region. Under 
the circumstances, local, State, and Federal agencies in the 
region have responded extraordinarily well, and we continue our 
work together to improve that response.
    We are coordinating with the D.C. Emergency Management 
Agency, the U.S. Capital Police and others, to monitor the 
anthrax testing, gather the information, provide advice and 
assistance where necessary, and update our contingency plan, as 
appropriate.
    It is our constant duty to look for improvements and, as 
previously indicated, the challenges lie in our ability to 
coordinate the multi-jurisdictional efforts.
    FEMA has a role to play. We are not a regulatory agency. We 
do not approve their plans, but we constantly strive to improve 
the process. At present, we are leading a national assessment 
of the State's capabilities to response to a weapons of mass 
destruction event.
    FEMA regional staff, along with officials from the 
Department of Justice, Department of Health and Human Services, 
and the Environmental Protection Agency, are visiting every 
State and territory, including the District, to jointly assess 
the capability, and to determine where they need to improve, 
and how we can best get there.
    I appreciate your concerns and leadership during this 
difficult time. I assure you that we are working shoulder to 
shoulder with Governor Ridge, other Federal agencies, and the 
States to provide the best preparedness and response for the 
American people.
    Thank you, Madam Chairwoman, for convening this important 
hearing. This concludes my remarks, and I will be glad to 
answer any questions.
    [The prepared statement of Mr. Kasprisin follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.015
    
    [GRAPHIC] [TIFF OMITTED] 81954.016
    
    [GRAPHIC] [TIFF OMITTED] 81954.017
    
    [GRAPHIC] [TIFF OMITTED] 81954.018
    
    [GRAPHIC] [TIFF OMITTED] 81954.019
    
    [GRAPHIC] [TIFF OMITTED] 81954.020
    
    Mrs. Morella. Thank you, Mr. Kasprisin. It is a pleasure to 
have FEMA with us an to hear your comments.
    Mr. Kasprisin. Thank you.
    Mrs. Morella. I am now pleased to recognize Admiral Arthur 
Lawrence, the Assistant Surgeon General/Acting Principal Deputy 
Secretary, Department of Health and Human Services. That is a 
long title.
    Dr. Lawrence. That is not all of it, either. [Laughter.]
    Good morning, Madam Chair and members of the subcommittee. 
I am Dr. Arthur Lawrence, Assistant Surgeon General and Acting 
Principal Deputy Assistant Secretary for Health of the 
Department of Health and Human Services.
    In this regard, I perform the duties of the Assistant 
Secretary for Health, as the head of the Office of Public 
Health in Science, and supervise the activities of the Office 
of Emergency Preparedness.
    Recently, the emergency response capabilities of HHS have 
been mobilized to assist local governments in New York, 
Pennsylvania, and the Washington Metropolitan Area, to address 
health consequences of unprecedented terrorist attacks against 
the citizens of the United States.
    Our department, with our partners in the Departments of 
Veterans Affairs and Department of Defense, are in the best 
position at the national level to supplement the resources of 
State and local governments in mass casualty situations, 
regardless of their cause, as we have done continuously since 
September 11th.
    HHS is a signatory agency of the Federal Response Plan that 
was just referred to, that provides a structure for Federal 
response assistance to other levels of government, when 
resources are overwhelmed. In particular, our department is 
responsible for leading the health and medical services 
emergency support function of the plan, also known as ESF-8.
    We are supported in that responsibility by 12 other 
departments and agencies. The functions that we carry out 
through the Office of Emergency Preparedness include medical 
services, mental health services, preventive heath services, 
and environmental health services.
    All of the agencies of HHS participate with OEP in 
executing the functions of the Secretary of Health and Human 
Services under the plan.
    One of our most important assets for providing emergency 
health support to our citizens during disasters is the National 
Disaster Medical System [NDMS]. NDMS is a partnership of the 
Departments of Health and Human Services, Defense, and Veterans 
Affairs, as well as the Federal Emergency Management Agency.
    In this partnership, more than 7,000 health professionals--
doctors, nurses, pharmacists, emergency medical technicians, 
etc.--are organized into approximately 80 teams around the 
country, to provide medical mental health and specialized 
services at or near the scene of a disaster.
    Furthermore, the system provides the capability to 
transport patients to other locations away from the disaster 
region, in order to meet victims' definitive health care needs, 
should that be necessary.
    Additionally, under the system, both DOD and the VA manage 
approximately 2,000 private sector hospitals, which have 
volunteered and can be called upon to accept patients from 
other disaster areas, who might not otherwise be able to 
receive care in locally overwhelmed facilities.
    Another resource that we can access is the Public Health 
Service's Commissioned Corps Readiness Force [CCRF], a group of 
approximately 1,400 Public Health Service Officers, that can be 
mobilized to respond to disasters or other public health 
emergencies immediately.
    Immediately after the attack on the World Trade Center, the 
Secretary of HHS, Tommy Thompson, placed these systems on their 
highest state of readiness to respond, and they did.
    Since September 11th, we have mobilized over 1,300 members 
of the National Disaster Medical System, commissioned officers 
under the Commissioned Corps Readiness Force, and Public health 
professionals, from the Centers from Disease Control to augment 
local resources available in response to respond to these 
calamities.
    For example, in New York City, we are still providing 
medical support for the teams working at the site of the 
destruction of the World Trade Center, augmenting the resources 
of the medical examiner to identify the victims of the attack, 
supplementing nursing staff at the burn center that is taking 
care of some of the survivors, assisting the Department of 
Health with its public health surveillance, and providing 
support for the immediate crisis counseling needs that have 
been identified, among other activities.
    In addition to continuing to support the city in response 
to the World Trade Center, we have deployed over 100 NDMS and 
CCRF members to assist in distribution drugs to the U.S. Postal 
Service workers, to protect them from potential exposure to the 
anthrax that was used to contaminate letters sent to the major 
television networks, that passed through mail processing 
centers.
    Today and tomorrow, these teams are back in New York to 
assist in distributing the pharmaceuticals that will be 
necessary to complete the prophylaxis of more than 5,000 postal 
workers and contractors similarly exposed.
    Similarly, we are still assisting the District Government 
in investigation and controlling the health risks to U.S. 
Postal Service and other mail room workers, and visitors in the 
District and surrounding jurisdictions, that were exposed to 
anthrax, that was contained in one or more letters processed 
through the Brentwood Postal facility or the State Department 
Annex 32 mail handling area.
    In support of the District Government, we have provided the 
majority of health professionals that have staffed the anthrax 
prevention clinics that were set up at D.C. General Hospital to 
assure that mail handlers exposed to anthrax in Washington 
received the necessary pharmaceuticals; in this case, 
ciprofloxacin and doxycycline.
    Although we also provided these drugs to Maryland, 
Virginia, and New Jersey, for their affected Postal workers, 
their health departments decided to make the distributions 
without our direct assistance.
    Our department has had a long experience with both Federal, 
State, and local governments in the Washington Metropolitan 
Area in preparing for terrorist attacks. For example, here in 
the Capital, our teams support the attending physician during 
major events, such as the State of the Union Address, assuring 
that the availability of health services for Members of 
Congress, their staffs, and visitors, should a significant 
disaster occur.
    In recent weeks, we have provided continuance support to 
the Office of the Attending Physician, in testing and providing 
preventive services and pharmaceuticals to Members of Congress, 
their staffs, and visitors, to areas affected by the release of 
anthrax in the congressional mail system.
    Likewise, we have worked with all of the Washington area 
jurisdictions to create a National Medical Response Team that 
can supplement the available resources in any one of the 
jurisdictions of Montgomery County, Price George's County, 
Arlington County, Alexandria, Fairfax County, or the District, 
should there be a release of a chemical weapon.
    Sufficient antidotes are stockpiled here to treat 5,000 
victims, using a team that can respond within 90 minutes of 
activation.
    We are now in the final stages of completion of a plan, 
expected within 2 weeks, for the distribution of 
pharmaceuticals in the District, in the event of a biological 
attack that is directed against the general population.
    These most recent events have not been the initiator for 
our local actions. In fact, we have been working with the 
governments in Maryland, Virginia, and the District since 1995, 
in strengthening public health responsibilities. We are looking 
forward to continuing these close working relationships.
    Thank you, Madam Chairwoman, for the opportunity to testify 
today.
    [The prepared statement of Dr. Lawrence follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.021
    
    [GRAPHIC] [TIFF OMITTED] 81954.022
    
    [GRAPHIC] [TIFF OMITTED] 81954.023
    
    [GRAPHIC] [TIFF OMITTED] 81954.024
    
    [GRAPHIC] [TIFF OMITTED] 81954.025
    
    [GRAPHIC] [TIFF OMITTED] 81954.026
    
    Mrs. Morella. Thank you, Admiral Lawrence, for your 
testimony, in terms of the coordination with the entire region.
    I am now pleased to recognize Michael Rogers, the executive 
director of the Metropolitan Washington Council of Governments. 
Welcome, it is good to see you, again.
    Mr. Rogers. Madam Chair, Ms. Norton, and Ms. Watson, I am 
very pleased to be here on behalf of the Board of Directors of 
the Metropolitan Washington Council of Governments to discuss 
emergency preparedness for the Washington Region and what we, 
at COG, are doing to assist in making EMS or emergency 
preparedness plans effective, complete, and coordinated.
    As you know, the Council of Governments is the association 
of 17 major cities and counties in the Washington Metropolitan 
Region. COG provides a forum for regional cooperation. At COG, 
elected officials work together to find solutions to our shared 
challenges, and then continue to work together to implement 
those solutions.
    This organization also serves its members by acting as a 
think tank for local governments and a regional information 
source on the environment, transportation, and human services.
    COG represents a partnership that provides solid research, 
planning, and leadership, and can ensure that this region 
speaks with one voice.
    As we confront the aftermath of September 11th, I believe 
there is no other time in COG's 44-year history when those 
services, the services we provide, have been more valuable to 
the region.
    In recent weeks, COG has brought together the emergency 
management and public safety officials from our member 
governments, State and Federal officials, and local health 
organizations. Our purpose has been to coordinate the work that 
is being done by each of these entities into an effective, 
complete regional plan of action, to be used in the event of 
major emergencies.
    COG continues to do what we do best, and that is serve as a 
forum for interested parties to come together to discuss and 
plan for a specific emergency. We can do this because COG's 
committee support structure provides a place and mechanism for 
public safety officials to come together to address common 
needs and concerns.
    In addition to the committee structure, the concept of a 
forum has been extended to COG, serving as a moderator of 
regional conference calls of public officials getting together 
to discuss event-related topics, such as government and school 
closings and openings, and the need for information hotlines 
and mutual aid.
    COG facilities are available for emergency meetings at the 
time of disaster, and have been used periodically. We have also 
set up hotlines, to give information to the public regarding 
the nature of the emergency, when called upon.
    To give local governments the tools that they need to 
manage an incident, COG has developed agreements, plans, and 
communication systems to aid them.
    Basic to contingency planning are the police and fire 
mutual aid agreements. When one jurisdiction has an emergency 
and has committed or foresees that it will commit all of its 
resources, it can request aid from its neighbors. This was ably 
demonstrated on September 11th at the Pentagon, as we all know. 
But there is work that remains in the emergency management 
area, particularly with mutual aids.
    We have been using, since the Air Florida crisis crash, an 
incident command system as the basis for responding to 
incidents. That has been a very effective way of proceeding.
    The question has been asked, if COG has a terrorism plan. 
The short answer is no. The mutual aid operational plan 
developed after Air Florida is an all hazards plan. At the 
regional level, the planning principles contained in the 
Incident Command System are applicable to a whole host of 
contingencies, from a simple car crash to an aircraft incident.
    Specific planning remains the responsibility of local 
governments, and we work with them in doing the regional 
coordination.
    One role that COG has played is developing a communications 
system that allows and facilitates the regional leaders to talk 
to each other and to the public. A variety of systems exist for 
police, fire, and D.C. hospitals. This is called the Mutual Aid 
Radio Systems. That is tested daily and is used regularly, and 
was definitely used on September 11th.
    I am going to skip over some of the details about the 
systems, but the testimony is submitted for the record. But I 
want to make this point. COG's role in an emergency is fairly 
limited, but effective where we are involved.
    In the September 11th incident at the Pentagon, the city 
and county administrators and schools officials talked in four 
COG-arranged conference calls to decide government and school 
closings and openings.
    For future events, a recommendation was made for emergency 
management officials to confer on a regular basis by conference 
call, rather than rely solely on the Washington Area Warning 
System.
    Since September 24th, the COG Board has been very much 
involved in directing the staff to work with our regional 
governments to produce a regional response plan and to look at 
that aftermath of September 11th.
    At a special meeting on September 25th, the COG Board 
encouraged the Mayor of the District of Columbia and chief 
executives from the region's jurisdictions to work with COG to 
ensure that our regional infrastructure was prepared to respond 
to catastrophic events.
    At that meeting, we began the process of reviewing police 
and fire mutual aid agreements that COG has had in place. The 
system had worked well on September 11th, but we will be coming 
to you for some assistance on legislation, to make sure that in 
the future, those mutual aid agreements can work even more 
effectively.
    On October 10th, COG Chair, Carol Schwartz, an at-large 
member of the District of Columbia Council, sent a letter to 
Secretary Tom Ridge of the Office of Homeland Security, asking 
him to make security plans for this region a model for the 
Nation.
    On October 25th, Chair Schwartz convened the first meeting 
of the COG Board Ad Hoc Task Force on Emergency Preparedness. 
The Task Force will continue to meet to coordinate the 
Emergency Response Plan into a unit that addresses 
policymaking, public safety, transportation, evacuation, 
communications, and public utilities.
    As I wrap up, let me simply say that we are at a point now 
where we have worked with the regional governments on their 
mutual aid plans. We are engaged with FEMA, looking at the 
National Capital Region plan for mass destruction contingency. 
We expect that FEMA will be involved in working with the COG 
Task Force.
    That National Capital Plan can serve as a framework for a 
regional contingency plan, which all local governments can be a 
part of, so that the National Capital Region is, in fact, very 
secure and we can respond to any type of emergency.
    I look forward to answering any questions that you have.
    [The prepared statement of Mr. Rogers follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.043
    
    [GRAPHIC] [TIFF OMITTED] 81954.044
    
    [GRAPHIC] [TIFF OMITTED] 81954.045
    
    [GRAPHIC] [TIFF OMITTED] 81954.046
    
    [GRAPHIC] [TIFF OMITTED] 81954.047
    
    [GRAPHIC] [TIFF OMITTED] 81954.048
    
    [GRAPHIC] [TIFF OMITTED] 81954.049
    
    [GRAPHIC] [TIFF OMITTED] 81954.050
    
    [GRAPHIC] [TIFF OMITTED] 81954.051
    
    [GRAPHIC] [TIFF OMITTED] 81954.052
    
    [GRAPHIC] [TIFF OMITTED] 81954.053
    
    [GRAPHIC] [TIFF OMITTED] 81954.054
    
    [GRAPHIC] [TIFF OMITTED] 81954.055
    
    [GRAPHIC] [TIFF OMITTED] 81954.056
    
    [GRAPHIC] [TIFF OMITTED] 81954.057
    
    [GRAPHIC] [TIFF OMITTED] 81954.058
    
    [GRAPHIC] [TIFF OMITTED] 81954.059
    
    [GRAPHIC] [TIFF OMITTED] 81954.060
    
    [GRAPHIC] [TIFF OMITTED] 81954.061
    
    [GRAPHIC] [TIFF OMITTED] 81954.062
    
    [GRAPHIC] [TIFF OMITTED] 81954.063
    
    [GRAPHIC] [TIFF OMITTED] 81954.064
    
    Mrs. Morella. Thank you very much, Mr. Rogers. Your entire 
testimony, of course, is in the record. I noted it is very 
thorough, and we appreciate that.
    I am now pleased to recognize our Police Chief, Charles 
Ramsey, chief of the Metropolitan Police Department. Thank you 
for being with us today, Chief.
    Mr. Ramsey. Thank you and good morning Madam Chair, 
Congresswoman Norton, Congresswoman Watson, staff, and guests.
    I appreciate the opportunity to present this statement 
concerning emergency preparedness in the District of Columbia 
from the perspective of the local law enforcement.
    As I look back on the horrific and unprecedented events of 
September 11th, I am very, very proud of how the members and 
leaders of the Metropolitan Police Department responded. Our 
members displayed much the same type of determination and 
agility, bravery, and creativity that were so evident in New 
York City and northern Virginia on that date.
    Our members helped send a reassuring message to the 
residents, visitors, and workers in the District of Columbia 
that their safety was of paramount importance to us. Allow me 
to provide just a few quick examples.
    On the morning of September 11th, our department quickly 
recalled all officers and essential civilian personnel, 
canceled their days off, and put all of our sworn members in 
uniform on 12 hour shifts.
    Our immediate priority was to ensure that we had all of our 
personnel resources available and ready to deal with any 
threats or attacks on the District of Columbia, while also 
continuing to patrol our neighborhoods. We met that priority 
quickly and effectively, I believe.
    We got our state-of-the-art Joint Command and Control 
Center up and running immediately after the second World Trade 
Center attack. In fact, it was already operational before the 
hijacked plane struck the Pentagon.
    The center includes both Metropolitan Police Department 
members and personnel from our critical partners in the Federal 
and regional governments, including the FBI, the U.S. Secret 
Service, the Bureau of Alcohol, Tobacco and Firearms, the State 
Department, U.S. Marshall's Service, Coast Guard, Amtrak, 
Metro, and others.
    Having this joint Command Center operational from the 
earliest moments following the attacks allowed us to access, 
filter, verify and disseminate critical law enforcement 
information in the very hectic and confusing moments as these 
events were unfolding. We have kept the center up and running, 
at various levels of activation, since September 11th, and we 
are prepared to ramp it up, as needed, at a moment's notice.
    We put officers at critical intersections throughout the 
city, both to enhance our visibility and to help direct 
traffic, to the extent possible.
    I think we all recognize the Herculean task the District 
faced in trying to get that many people out of the city at one 
time. That we did so, in a safe and mostly orderly manner, is a 
testament to our police officers and other traffic safety 
personnel.
    Our department sent resources to assist with the Pentagon 
rescue and recovery efforts: mobile crime officers, search and 
rescue dogs, and some of our CDU or civil disturbance unit 
platoons.
    These members worked long hours, under very grueling 
conditions, to assist the FBI and local law enforcement 
authorities. We continue to assist with the protection of 
critical Federal and local installations here in the District.
    That our department carried out these and other missions, 
while continuing to provide some level of basic police services 
in our neighborhoods is an illustration of our commitment and 
professionalism. That commitment and professionalism have 
continued in the weeks following the attacks, as new 
developments have arisen.
    I am confident that our department, working with others in 
local and Federal Government, is fully prepared to address any 
threats our Nation's Capital may face in the future.
    Earlier this month I, along with Deputy Mayor Margaret 
Kellums and members of my command staff, traveled to New York 
City to tour Ground Zero in lower Manhattan. We wanted to see 
first-hand the extent of the damage and the nature of the 
recovery operation, both of which are almost indescribable.
    Command members and I took a similar tour of the Pentagon 
attack site, as well. Both sites are sober reminders of the 
threats we continue to face, especially here in the Nation's 
Capital, and the need to be prepared.
    We also wanted to talk face-to-face with officials from New 
York City Police Department and other public safety agencies, 
who have been involved with, and so deeply affected by this 
national tragedy. Their stories of individual courage and 
organizational resolve are not only moving, but very 
instructive to our efforts here in the District.
    One theme we heard over and over again in New York was that 
when the attacks on the World Trade Center occurred, the Police 
Department and the public safety agencies did not have the 
luxury of waiting to consult their emergency operation plans.
    First and foremost, they did what police officers and fire 
fighters and emergency medical personnel do in any incident 
approaching this magnitude. They rushed headlong into danger. 
In doing so, they saved countless lives, even as many of their 
own did not survive.
    I am confident that our police officers, fire fighters, and 
emergency medical personnel here in D.C. would show the same 
courage and selfless dedication to service, as we saw in New 
York and northern Virginia.
    Still, our trip to New York did reinforce the need to have 
a comprehensive, well thought out plan to support not only the 
initial responders, but also the entire range of individuals 
touched by events such as these: the victims, their families, 
other agencies that take part in the rescue and recovery 
efforts, neighbors, school children, and the list goes on and 
on.
    In other words, our plans need to build the type of support 
network that will enhance the safety and effectiveness of the 
initial responders, while creating a broad safety net for those 
who come in behind us. Through our local planning efforts, the 
Mayor has moved the entire city government in that direction.
    For the Metropolitan Police Department, there are a few 
critical areas that we are focusing on, as we work to update 
and improve our Emergency Response Plan. The Mayor has placed 
me in charge of what we call ESF, or Emergency Support Function 
No. 13, which covers law enforcement.
    These are just some of the areas that we are really 
focusing on, if I may. Equipment is very, very critical, 
especially given the potential threat posed by biological or 
chemical attack.
    Like police departments in major cities across the country, 
we are now looking to upgrade the clothing, masks, and other 
protective gear that we issue to our officers, particularly 
those in specialized assignments that would be among the first 
responders to these types of critical incidents.
    Training is another critical area. In fiscal year 2000, we 
provided all sworn members of the Metropolitan Police 
Department with a basic 4 hour training on weapons of mass 
destruction as part of their regular in-serve training, but we 
need to do much more.
    We are now in the process of implementing a 3-year training 
plan, that will build on the basic awareness course with more 
specifics on how to handle biochemical and related events.
    I mentioned traffic earlier. As part of the Mayor's city-
wide plan, our department is working closely with the District 
Division of Transportation, first to develop an evacuation plan 
for the District, should the need arise in the future.
    Then we will be going to neighboring jurisdictions to 
ensure that our plans are coordinated with theirs. Traffic 
management is a regional issue, and we must deal with it in a 
comprehensive regional manner.
    Coordination with our Federal partners in traffic plans and 
street closures is also crucial. Our department will continue 
to support the Mayor and other District officials in their 
efforts to ensure that security needs are balanced with the 
imperative to keep traffic in our city moving smoothly and 
safely.
    These and other changes have been incorporated into a 
General Order that updates and improves our basic Emergency 
Response Plan. This order establishes three different levels of 
emergency response to different situations, and it includes a 
matrix of decisions and activities that will occur within each 
level.
    We are also in the process of developing more detailed 
Standard Operating Procedures for major operational support 
units. These SOPs will put an overall plan into action. This is 
in addition to the city's overall Emergency Response Plan.
    Of course, there are no rules for the type of heartless 
attacks that occurred on September 11th. Because of that, there 
can be no hard and fast rules for how police officers and other 
first responders will react.
    Responding to the threats we face today will necessarily 
entail a great deal of quick thinking, ingenuity and 
improvisation on our part. Our Emergency Response Plans will 
play an important role
in ensuring that we can respond as safely and effectively as 
possible, and that our officers will have all the support 
mechanisms in place to carry out our unique and heroic 
responsibilities to the community.
    Thank you very much.
    [The prepared statement of Mr. Ramsey follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.027
    
    [GRAPHIC] [TIFF OMITTED] 81954.028
    
    [GRAPHIC] [TIFF OMITTED] 81954.029
    
    [GRAPHIC] [TIFF OMITTED] 81954.030
    
    [GRAPHIC] [TIFF OMITTED] 81954.031
    
    Mrs. Morella. Thank you very much, Chief Ramsey.
    You have all made us feel pretty confident and secure with 
the plans and coordination and communication. I think we have 
learned a lot from September 11th.
    I would like to ask you a very simple question that may be 
somewhat complex. That is, could you walk us through what you 
would do if another terrorist attack of some nature occurred; 
specifically what would happen.
    I mean, you can all respond, but I was thinking perhaps the 
Mayor and FEMA and perhaps the police; however you see that you 
should structure it. But specifically, what would happen? It 
all sounds great, the coordination, but what would happen?
    Would you like to start us off, Mr. Mayor? While you think 
about it, too, I was thinking about what you and Councilwoman 
Chair Cropp commented on the Homeland Security. I certainly do 
believe that the District of Columbia should be involved with 
that, too.
    But since the Office of Homeland Security is not in 
statute, it may be difficult to create a link that it would be 
in statute, if it is not. So maybe we could do a memorandum of 
understanding or something to provide that kind of linkage.
    But I just wanted to comment on the fact that because it is 
not in statute, even though there has been some legislation 
that has been submitted to do that, it has been so very 
difficult to delineate specifically what the jurisdiction is.
    But if you would try to walk us through what would happen 
if an emergency such as we experienced or similar to what we 
experienced on September 11th occurred.
    Mayor Williams. If I could just summarize, Madam Chair, I 
think first of all, we would want to see, in advance of 
coordination, that there would be the proper level of 
coordination with the Federal Government, and certainly, having 
our Emergency Response Plan aligned with the Federal Response 
Plan helps with coordination.
    Having an ongoing, working, organic, if you will, 
relationship with the Homeland Security people, in terms of 
coordination, is important.
    Again, I mentioned, if we knew in advance what the plans 
for the different Federal agencies and the Capitol were for 
security at different levels, we could all plan accordingly, 
and know in advance what balance we are going to strike between 
public safety and open city and open transportation.
    We would want to know in advance in coordination what our 
citizens should expect. We have handed out thousands of these 
disaster preparedness kits to our citizens that talk about what 
we expect our citizens to do in different environments and 
different situations.
    We would expect, second, that there be better 
communication, frankly, then there was on September 11th. For 
that purpose, as part of our plan, which is right here, our 
expanded disaster plan, we have something fancy called the 
District Notification Protocol.
    This is a fancy way of making sure that everybody in the 
District Government is notified appropriately in certain 
situations, and that there be systems in place, ranging from 
satellite phones for key officials, to use of ``1-800'' for 
communication; and the use of Verizon in certain circumstances.
    We have made provisions now with Verizon so that, for 
example, District agencies have bumping rights. So if one of 
our kids is on the phone planning a party, that does not take 
precedence over District officials and regional officials 
trying to plan their business in an emergency situations; and 
then finally use of pagers and cell phones.
    Also in terms of communication, one lesson that I have 
learned from September 11th is on a number of different levels. 
No. 1, you cannot provide, I believe, too much information too 
soon to people, and that you should not wait to provide 
information to people until you have perfect information, or 
even halfway decent information. You should not wait to get 
information to people until you have removed the level of 
uncertainty to a certain level.
    There is always going to be uncertainty. You are never 
going to have perfect information, and you need to get out 
there quickly with that information. Under the protocols as 
routines that we have established in our Emergency Response 
Plan, at a Level 3 emergency, which would be the highest level 
of emergency, we would introduce and use the FCC-approved 
Emergency Broadcast System.
    Just so the record is clear, if I had to do it over again, 
and we had the coordination at the level that we have now in 
place, I would have used the Emergency Broadcast System back on 
September 11th.
    You know, what you are trying to avoid, as an official in 
my situation, on the one hand, you want to avoid the horrible 
tragedy of that guy in the World Trade Center, who was on the 
megaphone telling everybody to go back to their desks. That is 
an example of getting information out to people quickly that is 
clearly the wrong information.
    On the other hand, you do not want to have a situation 
where you are waiting for hours to get some kind of information 
to people. So using that system, I think, as we have done with 
the anthrax crisis, with regular briefings to the press, where 
you are providing open information, is important.
    Having said that, I think it is critically important and 
another lesson that we have learned, in terms of communication, 
is not to mix our messages.
    We have to avoid mixing the message of preparedness and 
security. In other words, these are the facts, ma'am, and only 
the facts, and they may not be pretty. We cannot mix the 
message with a message of reassurance. Do not try to mix the 
messages.
    Often what the current situation is, it is not a pretty 
picture, and we should not try to pretty it up. We need to 
reserve that time for reassurance for another time, and that 
communication is vitally important.
    Finally, to wrap up, I think one area that clearly could be 
tightened up, I think, looking back on September 11th, again, 
is the coordination with the Federal Government, and we have 
mentioned that. But also it is the coordination with the 
private sector and coordination with our regional partners.
    I believe that the steps are being put in place where, God 
forbid, if we had this crisis again, there would be immediately 
continual consultation and coordination with our regional 
partners, as is required.
    Mrs. Morella. That is exactly what we would like to get at, 
what needs to be done to do that. First of all, I have always 
had the feeling that it would be great, if you were the 
spokesperson every day, to get on the radio or communicate on a 
daily basis what the situation is, as it is fed into you.
    You have done a great job as the spokesman, but I think for 
the people to expect it regularly would give them the feeling 
that they are getting the accurate information from the person 
who knows it.
    Second, you started off your statement about the fact that 
the Federal agencies are somewhat derelict in not having a plan 
that would coordinate with the District plan, if anyone wants 
to comment on that.
    Because, again, we hope to come up with maybe some action 
items or some things we can move forward, to make sure there is 
the synchronization of the Federal Government fitting in with 
the Emergency Response System in the District of Columbia, as 
well as with the regions.
    Ms. Cropp. Madam Chair, if I may just make one statement, 
as I looked at it. It is very clear that I think that the 
District has to be at the table in the form of our Mayor for 
any decisions that are being made, particularly as they impact 
local government.
    Just to show you one big example, when everyone went home 
on September 11th, everyone let all of the Federal Government 
workers out and the private sector was going out, but then 
bridges were closed. So there was no coordination along those 
lines. So you had a huge traffic jam.
    The Mayor must be at the table for any decision that is 
being made within the District of Columbia, in order that you 
can have that kind of coordination that you are talking about.
    I think the recent example with the anthrax case was really 
wonderful. I have watched or attended quite a few of the daily 
briefings, where you have coordination. You have the Federal 
Government and the local government working together, the Post 
Office working together, and the Mayor coordinated it. I think 
there was a sense of calm that was sent out clearly through 
everyone in the District.
    If I saw a lesson learned, the Mayor has to be at the 
table, and the Mayor has to be one of the major decisionmakers, 
as we look at what happens in this particular area.
    Mrs. Morella. Would you like to make any comment, Mr. 
Kasprisin?
    Mr. Kasprisin. Madam Chairwoman, I think we have to look at 
this in three distinct phases. One is the preparation phase. 
The second is the crisis phase, when it actually occurs and the 
response takes place, and then the consequence management piece 
toward the end.
    During the preparation phase, as the Mayor has indicated 
and others, there are a number of ongoing actions. One is 
updating the current plans to ensure that they are well 
coordinated at all levels of government.
    The issue of multi-jurisdictional potential conflicts, I 
think, is only cleared up through a series of exercises, 
tabletop exercises and others, to ensure that we are past 
there. I think we have in place a number of events that will 
help address some of that, at least at the Federal level.
    The response piece is broken down into two pieces: the 
crisis management and consequence management. At the Federal 
level, for the crisis management, the lead Federal agency is 
really the Department of Justice and FBI.
    They set up a joint operation center with representatives 
from the local communities and the States, if necessary, and 
have in there a joint information center that helps to 
coordinate the information that you are looking for.
    We have a liaison at all levels during that phase, both the 
local and the State, if appropriate, as well as within the 
strategic information operations center within the FBI, the 
SIOC.
    At the consequence management piece, it is really how do 
you respond to do the recovery. The Federal Emergency 
Management Agency, at that point, is the lead Federal agency.
    To walk you through what would happen there, we are really 
designed to support the local efforts, to identify where really 
a gap analysis is, the difference between what their 
capabilities are and what really needs to be done.
    In that regard, the Emergency Management Operation here 
locally with Peter LePorte really is driving the train for us, 
helping to identify where those needs are. We have been working 
very closely with him in their efforts. As the Mayor indicated 
earlier, Mr. Mike Lowder has helped work that.
    We have in place now a very specific plan to help address 
some of those perceived needs. In fact, we have created what we 
call a TIPFD, a time phased forced deployment list of the types 
of resources that would be needed in an emergency and have, in 
fact, moved some of those resources into place already.
    At the Federal level, we would immediately stand up a 
catastrophic disaster response group, with representatives from 
all Federal agencies, all key Federal agencies; an emergency 
support team; and an emergency response team for the National 
Capital Region, that would really create an office to help 
coordinate all the different types of emergency responses that 
would be required. We would have liaisons in all the 
appropriate places.
    With that, the key then is to identify what can the locals 
do, and what is the Federal Government needed to do, to support 
that.
    Mrs. Morella. What I am doing is taking two blocks of my 
questions, so I will let you each have 10 minutes also to ask, 
because I wanted to hear from the Council of Governments, Mr. 
Rogers.
    Mr. Rogers. Madam Chair, I understand your question to be 
the regional responses; if something happened today, what would 
be different about our response?
    Well, as I pointed out, the Council of Governments, with 
respect to our Regional conference calls, usually has advance 
notice, you know, from the National Weather Service, because it 
is involved with the snow plan. So we have time to arrange a 
conference call over a couple of hours.
    On September 11th, the conference call was initiated about 
2 p.m. and took place at 6 p.m., and of course, everyone was at 
home, and the focus was about the next day, whether the 
Government was going to be open, whether schools were going to 
be open or closed.
    We will change those procedures, and if an event occurred, 
we would immediately seek to set up the conference call, and 
engage the appropriate local officials, so that we could start 
the sharing of information.
    One of the first calls that would be made would be to the 
Federal Government, to the Office of Personnel Management. 
Because key to this equation is what is the Federal Government 
is going to do with respect to early release of the Federal 
work force.
    Because if that release is all at the same time and that 
may be necessary, someone ought to know it, so that appropriate 
plans can be made for the traffic management in the city, and 
so that there could be appropriate coordination with respect to 
bridges.
    So there would be earlier engagement with appropriate 
decisionmakers to do that. That is a service that we perform, 
and that is something that we will work with FEMA and the 
District and the Regional Governments to make sure we can 
implement.
    Mrs. Morella. I know that the OPM Director is working out a 
system with regard to the Federal employees.
    Mr. Rogers. Right.
    Mrs. Morella. Because that was a real difficulty on 
September 11th.
    Mr. Rogers. Yes.
    Mrs. Morella. Did you want to make any comments on that, 
Chief Ramsey?
    Mr. Ramsey. Yes, ma'am, in response to your question as to 
what we would do immediately, and this is presuming that it has 
already taken place, the first thing that we would do is, we 
would activate our Joint Operations Command Center immediately, 
and begin our protocol of notifying all the agencies that need 
to be notified, to make them aware of the situation, and get 
them to respond to the Center.
    Simultaneously, we would be gathering information to 
determine the nature and extent of the threat. It is hard to 
respond to something if you do not know what it is.
    If September 11th taught us anything, it is that a lot of 
information that comes in initially is bogus information, and 
you need to filter through it to find out exactly what it is 
that you are up against.
    We would activate a Level 1, 2, or 3 response, depending on 
the nature of the threat, and presuming it is Level 3, which it 
was on September 11th, we would begin a recall of personnel.
    We have recall rosters already there. We would recall all 
personnel with the exception, if it was like September 11th, we 
did not recall midnight personnel. They had gotten off work, 
and you need to start thinking about relief.
    So you do not need to burn everybody out at the same time, 
because we automatically go to 12 hour shifts, and we put 
everybody in uniform. So we need to have a group of people that 
we keep at home resting, to come in to be the relief of the 
initial responders.
    Our on-duty personnel would automatically be in route. We 
have our people already carrying all of their emergency 
equipment in the trunks of their vehicles, readily accessible, 
so they can respond. We immediately coordinate all of our 
actions through EMA, to make sure all the other city agencies 
that are responding were utilizing the plans that we have.
    If, for example, the traffic plan needs to be put into 
effect, what are the evacuation routes that would be 
determined, based on the nature of the problem? Obviously, some 
sections of the city may be closed off. There may be a need for 
a partial evacuation, full evacuation. What would be the 
emergency access routes?
    As a lot of people were leaving, we have got to have some 
way of getting people into the city, and that needs to be 
established very, very quickly. We need to get that information 
out to the public.
    We can get that out through the Emergency Broadcast System, 
and also through the media, using traffic reporters that know 
the city very, very well, and can assist in getting information 
out to the public.
    We will work with transportation. We are charged with 
determining staging areas for equipment and personnel, and 
getting that particular information out. If there is a need for 
a field command post, we will establish that.
    I would like to say that the Joint Operation Command Center 
is a joint FBI/Secret Service/MPD command center. So we do have 
direct access to the FBI data base. We have liaisons that we 
send to EMA, to the SIOC, and to various other command posts, 
so that we are completely linked, and we know exactly what is 
going.
    Those would be some of the immediate things that we do.
    Mrs. Morella. We do not have emergency evacuation routes 
already?
    Mr. Ramsey. Oh, we do have emergency evacuation routes, 
ma'am, but depending on the nature of the problem, you do not 
want to send people toward a hot area.
    So what you have to do is know exactly what is taking 
place, so you know which routes to use, so we do not put people 
in harm's way unnecessarily.
    Mrs. Morella. I want to thank you.
    I now want to recognize Congresswoman Norton. I do want to 
also indicate that I think our Fire Chief, Ron Few, is here, 
very good. Thank you for being here.
    Ms. Norton. Thank you, Mrs. Morella.
    I am trying to find out how much of the planning is 
operational. The Mayor says in his testimony that there already 
exists a comprehensive Federal Response Plan. All I can say is, 
I sure did not see any evidence of it on September 11th.
    It is interesting to note that the District was criticized 
for not having a plan that was operational. But when the OPM 
just let people out into the street, there was no communication 
with the District. Whatever Federal plan existed was no more 
operational than what the District is accused of not having.
    It does seem to me that the real thing is not, do you have 
a plan; but do you have an operational plan; have you practiced 
the plan; how does the plan operate? So let me just ask a few 
questions that occur to me.
    I know that Mayor Williams has had a meeting, or at least 
one meeting, with Tom Ridge. Is that right?
    Mayor Williams. Yes, ma'am.
    Ms. Norton. Would you tell us what occurred at that 
meeting, the nature of that meeting, what was discussed at that 
meeting, and has there been more than one meeting?
    Mayor Williams. There has been one meeting. We talked about 
the requests that we have already submitted, as you know, 
concurrent with the council, in coordination with you, to the 
White House and the Congress, for emergency preparedness and 
the details of that emergency preparedness plan.
    As we all discussed, the fact that the District public 
safety people, as well as public health and transportation, are 
the first responders that need that resource to do their jobs.
    We talked about not just consultation, but better planning; 
and not just better coordination, which I think we are already 
seeing with the Feds on emergency response, but better 
coordination and planning with the Feds in the different 
branches of government, although you cannot speak for the 
Congress, obviously, but on security arrangements.
    This is so that we know ahead of time, if they say we are 
on a higher state of alert for Cabinet A, B, or C, what does 
that mean in advance?
    Ms. Norton. What did that mean to you, when you and the 
Police Chief heard that, again?
    Mayor Williams. Well, we talked about that. I mean, when 
you hear a greater state of alert, what does that mean? Is it 
credible or not credible, and on what source is it based? How 
are we supposed to plan?
    Ms. Norton. I am sorry, did I miss something? Did you all 
take immediate actions that you were not taking?
    Mayor Williams. Well, we are at a Level 1 state of 
preparedness right now. This is similar to the state of 
preparedness we were on or the alert we were on when we began 
the actual war effort.
    Ms. Norton. So you never got off of that other alert?
    Mayor Williams. I think we stepped down slightly, but we 
are back on Level 1, based on the alert we just heard this 
week.
    But I guess the long and short of it was, how can we, in 
advance, get some agreement on what we are going to do, in 
terms of security arrangements in advance, so all of us are not 
spending all of our time talking about this street closing or 
that street closing. We can have these arguments and 
discussions ahead of time.
    He seemed to be in support of that, and actually generally 
supportive or certainly understanding of our economic recovery 
needs. He was committed to working with us on an ongoing basis. 
I am hoping that we will be able to build on this working 
relationship.
    Ms. Norton. Yes, that is certainly my impression about Mr. 
Ridge who, of course, has the handicap of having to get his 
staff and having to get an operation together. He is not a 
Cabinet official, yet.
    He has come to speak to Members of Congress, and has said 
to us that it may be 6 months before he gets a sense of the 
statute and what it is that it really should require; since I 
think he may want to do things like put some agencies together, 
or ask Congress to do that, that are not together now. He may 
not simply want to work off of the grid.
    But I am concerned, especially since we keep getting these 
alerts. I do not want to criticize these alerts. I think that 
we have got to leave it to people who are there. I am told that 
some of the alerts may be because they want to throw off folks 
who are planning stuff. So I have to assume that people are not 
just doing this for practice or for the fun of it.
    Meanwhile, of course, resources get expended at local 
levels and all over the country. People are crying poor and 
saying they cannot continue to operate this way. Well, here, of 
course, an alert would have very special meaning.
    Now if the statute is not going to lay this out for another 
6 months or so, the statute that has already gotten the 
District in, I have a hesitation about how operational our city 
agencies can be with the Federal agencies.
    I am looking at the Mayor's testimony on page 3, in which 
you talk about your own Task Force to mirror the Federal 
Response Plan. Then you talk about a transportation group for 
evacuation plans, a law enforcement group and the like, and a 
communications group.
    Then later on, you expressed your gratitude to FEMA, and I 
want to express mine, as well, because obviously, FEMA is 
moving to do what FEMA always does. I mean, everybody else may 
not be prepared for a crisis, but FEMA is in the crisis 
business. Well, FEMA has brought resources apparently from EPA, 
HHS, and the Army Corps of Engineers.
    Now what is wrong with this picture is that those agencies 
are not directly related to evacuation. That would seem to me 
to be DOT or the public order which, of course, is FBI and DOJ.
    So I am seeking to find out whether or not there exists an 
operational plan, which means that the District of Columbia is 
in touch with the Federal agencies in this town, who have an 
overall jurisdiction, and what we can do to put the District 
into operational touch with those agencies; yes, Mr. Mayor?
    Mayor Williams. Well, I think through FEMA and the 
gentleman that I spoke of, who has, I think, played a critical 
role in this, we have been updating I think this is the fifth 
draft now of the District's plan that we are aligning with the 
Federal plan. I consider it constantly evolving. This plan will 
be constantly updated as new information comes in.
    In working with FEMA, we have been able to isolate a number 
of different functional areas that really outline how we would 
respond in certain situations.
    One of the functional areas is transportation. There has 
been coordination with the Federal Transportation Department, 
which is designated as the lead Federal agency in a 
transportation situation.
    Other Federal agencies are designated as the lead Federal 
agencies, in everything from public health to feeding 
situations. So there is, through the FEMA route at least, 
coordination with the Federal Government.
    I think what we are looking for, from Governor Ridge, is in 
advance of an actual emergency, just better consultation and 
preparation on general security, in a way that balances, as you 
all know, again, the needs of a safe city and an open city. I 
hope that helps.
    Ms. Norton. It does.
    Mr. Kasprisin, do you feel that pending whatever Congress 
decides to do, or whatever Mr. Ridge does, as he gets organized 
across the agencies, do you feel yourself to be the central 
coordinating authority within the Federal Government for these 
functions: law enforcement, transportation?
    OPM put people out in the streets. Are you the one that we 
go to next time to make sure that does not happen? I mean, are 
you ``the man?'' [Laughter.]
    Mr. Kasprisin. I do not know if I would ever describe 
myself as the man to do all that. Again, I think it is a very 
valid question and very insightful. But there is really a 
distinct break in time between the crisis management and the 
consequence management.
    We are the ``go to'' organization, the lead Federal agency, 
from the consequence management side of the house. But from the 
law enforcement side and all those activities that are rolled 
up on that from the Federal side, it is really the Department 
of Justice and FBI. It would be very presumptive of me to try 
to answer that question for them.
    I suspect the Police Chief would probably have some better 
insights in that regard.
    Ms. Norton. I take it the Police Chief would just do what 
he had to do, and use his existing routes to the FBI and other 
Federal agencies.
    Mr. Ramsey. Yes, ma'am, we have had very close coordination 
with the FBI. For example, just yesterday, Director Mueller 
actually came by and visited my office for about an hour.
    We spent a great deal of time talking about these alerts 
and various other things that are a concern to not only myself, 
but police chiefs throughout the country. He visited our Joint 
Command Center, and it was a very productive meeting.
    We meet and we speak not with Director Mueller, but with 
the FBI on a daily basis. MPD hosts a conference call at 8:45 
every morning with all the regional police chiefs in Virginia, 
Maryland, the Federal agencies such as FBI, Secret Service, 
ATF, Capital Police, Park Police.
    All these agencies participate in this conference call to 
talk about the situation, to go over the latest intelligence 
information that we have through our Joint Terrorism Task 
Force, so that we know that we are all in sync on the same 
page, and that we all know exactly, at least to the extent 
possible, what to expect during the next 24 hours and what 
security precautions we need to be taking.
    So it has improved greatly. I realize there are still some 
issues in some jurisdictions. But as far as it goes here, the 
communication is very strong. I am in charge of ESF-13, as we 
call it, which is the law enforcement emergency support 
function. As part of our plan, having that kind of coordinated 
response is very much a part of that plan.
    Ms. Norton. The Chair suggested, and I think it is 
something that we should get into, to see whether or not, in 
the interim, especially since there may not be any statute for 
some time, that there ought to be some memorandum of 
understanding between the Federal Government and D.C., so that 
we would feel more secure about overall coordination. That is 
something that I would like to discuss with the Chair later.
    Let me just give an example of regional coordination. The 
District of Columbia, I think wisely, left the children in 
school on September 11th. I think that now, after the fact, 
they know that was the right decision.
    The regions did not do that. I do not know what the 
regional thinking was, or whether issues like that are left on 
a school by school, case by case basis. But the last time I 
heard, people in the suburbs had to pick their children up and 
somehow help them get off to school. They may have different 
arrangements, because they do have school buses that many of 
them ride on.
    But are issues like that on the regional level discussed, 
or should that all be left, as it always has been, on a case by 
case, region by region, or district by district basis?
    Mr. Rogers. If I may, on September 11th, the decision about 
schools was made individually, because the conference call did 
not take place, you know, until 6 p.m. So schools acted on 
their own.
    Ms. Norton. You see, there are not going to be any 
conference calls. That is the whole point.
    Mr. Rogers. Yes.
    Ms. Norton. Nobody is ever going to be able to get a land 
line again. So somebody at the school districts have got to 
meet and decide whether, look, we are going to have to leave 
this to each school district, ahead of time; or they are going 
to have to decide that they want to coordinate this kind of 
thing; Ms. Cropp?
    Ms. Cropp. If I could use my old school teacher counselor 
hat, one of the problems in schools being let out during an 
emergency such as that, right now, most of the parents, where 
the children are, they are working. Particularly for the 
elementary schools, there is no one home to even receive them. 
On September 11th, many of the parents were still trying to get 
home, themselves.
    I would think that this is an opportunity for the schools 
to get together and to talk about a process whereas if, in 
fact, the offices are being let out, that there should be at 
least a staggered time for the schools to be let out, so that 
the children will not go home to an empty house, or that the 
children will not be kept on the road, trying to get home at 
the same time.
    So there needs to be some type of coordinated effort. There 
needs to be contact with the Federal offices, with the District 
offices, with the State offices, as to whether or not they are 
letting their work force out. My immediate recommendation would 
probably be that the schools should be kept in. At least the 
children are safe there.
    Ms. Norton. Well, that is my instinct, too. But has anybody 
met to make those decisions? Has anybody met between OPM and 
D.C. to make a decision on what will happen with Federal 
workers, or how you will make that decision, and what is it, 
then? What is the decision on schools, and what is the decision 
on Federal workers and D.C. workers?
    Mayor Williams. Well, Congresswoman Norton, in an emergency 
situation, on a Level 3, you would have a declaration of 
emergency. The schools and every otherwise independent agency 
would fall under the authority of the Mayor.
    My first instinct would be to keep the schools in place 
while we then, as quickly as possible using communications that 
we have now put in place, get in touch with regional 
authorities to consult on the matter.
    I can have Peter LePorte respond to you on where we are in 
terms of consultations with OPM. Can we do that?
    Ms. Norton. Yes, that would be fine, if he would be willing 
to speak on the Government workers and on school.
    I mean, since students cross these jurisdictional lines, if 
one jurisdiction has one rule and another has another rule, 
does that matter?
    I would think that the children, in particular, would be of 
the greatest concern to us at a time like this. If we did not 
have a plan for anybody else, it ought to be what to do with 
children, or how to at least make a decision quickly on what to 
do about children.
    Mr. LePorte. Let me first talk to you about OPM, because I 
think that was one of the major challenges on the 11th. If you 
talk to OPM, they will readily admit, their communications were 
ineffective to their other Federal workers in those other 
buildings, as well as to the White House, and to the District, 
specifically, trying to get in touch with this.
    What we have put in place is some redundant systems. We 
provided them with one of our 800 megahertz radios so, in the 
worst case scenario, if phones did not work and pages did not 
work, we would be able to contact them through radio.
    They have also met with regional partners from around the 
jurisdictions of OPM. The Director met and discussed some of 
her thinking about dismissal of Federal workers, and how they 
would go about that.
    They also needed a little bit of education and 
understanding of how the Metro system was to work in a crisis, 
because many people take public transportation.
    On the 11th, the Metro was closed down for 15 minutes, 
until the system was cleared and checked. Many people went to 
the Metro, thinking it was closed, and then proceeded to walk, 
stay out in the street, and that can cause much confusion.
    Ms. Norton. Excuse me, they did that on their motion?
    Mr. LePorte. In many cases, they did.
    Ms. Norton. I am talking about the Metro. The Metro decided 
to close down?
    Mr. LePorte. No, Metro has a phenomenal system, but they 
put in a check, that they check their system. They go through 
the system for 15 minutes to make sure it is safe, and then 
they opened it up.
    But a lot of people were confused, when they went to the 
system and it was closed for 15 minutes. Including up here on 
Capitol Hill, the station was closed for 15 minutes.
    So OPM has now put a better mechanism in place to consult 
No. 1, with the White House; No. 2, with FEMA, and with the 
District. Specifically, they would send us a liaison from the 
Office of Personnel Management from the Federal Government into 
our Emergency Operations Center, and we have a place for them 
in the center.
    So we would have direct contact, face to face, as well as 
if they could not make it there, we would have the redundancy 
to be able to communicate with them.
    Regarding schools, which you are right, schools were in 
many ways heros on September 11th by keeping those kids in 
school; but they also have redundant systems with communication 
back to the Emergency Operations Center, as well as into the 
Operations Center that the Police Department has.
    We have met with schools several times. We talked about 
their emergency planning. For each school, we have met with 
principals. We have actually provided them with some sample 
plans and some best practices from around the country.
    The State of Georgia pretty much has the best school 
planning system that I have recognized. We have shared that 
information with our schools, and we have engaged them in 
disaster planning, as well as introduced a curriculum called, 
Masters of Disaster, from grades one through eight throughout 
the schools.
    Ms. Norton. You are working with the region, as well. Does 
your work with the region involve schools, or is that left to 
each individual school district?
    Mr. LePorte. In an emergency situation in the local 
jurisdictions, the executive would be making that decision, in 
consultation with those specific superintendents, similar to 
here. If we were at Stage 3, with an independent agency, the 
decision would be made by the Mayor, but that would be done in 
consultation with the superintendent.
    Ms. Norton. Could I ask that a meeting be held of 
superintendents of the various school districts? These children 
go across lines. The children are all across lines. This is an 
example of where you need regional planning. At least people 
need to know why they are doing it, only on a case by case 
basis, if they decide to do that.
    But if there is regional planning, and if we are talking 
about children, I would simply like to request that those in 
charge of these school districts, since we are supposed to be 
doing regional planning now, have a meeting and have the 
District of Columbia experience shared with them, so that we 
will know whether, if a child comes from Montgomery County or 
if a child from D.C. is out there, whether or not it really 
makes sense for us not to be doing the same thing, or at least 
not to have the kind of communication to do the same thing.
    Madam Chair, I have other questions, but I may be over 
time.
    Mrs. Morella. I think what we will do, we will go just one 
more round after this, and then go on to our second panel. We 
could spend a long time with you, asking you questions. So we 
will be directing some of them to you in writing. Thank you.
    Congresswoman Watson.
    Ms. Watson. I think that all of those of you who are here 
today seem to have laid out your plans.
    What is really bothering me is the position that the new 
Director of Homeland Security is in. When he came to speak with 
us, it was obvious that he needed the resources and, I guess, 
the authority.
    What I still feel is missing is the coordination. In each 
one of your units, you have that coordination figured out, or 
at least that is the way it sounds.
    But I think putting it all together, connecting all the 
dots through the new Director of Homeland Security, is needed. 
I would think, like Congresswoman Norton, that the school 
districts should be involved.
    I know when we had our panel in Los Angeles, we had school 
personnel there. I am very sensitive to the fact that children 
cannot be let go out on the streets, because their parents 
indeed are working. Without that supervision, we are at higher 
risk.
    I really feel that maybe we ought to have one of you take 
the lead with sitting down with the new Director of Homeland 
Security, and talking about all the agencies that ought to be 
involved. Certainly, your agencies are just naturals.
    But somewhere, we need to feel assured that all of you are 
working under the direction of one person. I do not know if 
that is FEMA, but I would think that Director should have the 
responsibility of bringing all these agencies together.
    I understand there are 17 agencies that relate to the 
intelligent unit or family. But we are not hearing what is 
happening with coordinating all of these. I think that is the 
missing link, the weakest link.
    So all of you, I have to commend you for coming and 
expressing your plans. We have your written statements, and it 
seems like you are thinking ahead. But how do we bring it all 
together, and maybe that is his job?
    I do not envy Governor Ridge. He said to us, when he spoke 
to a combined caucus, that you ought to have caller ID. on your 
telephone, so you will know when to answer the phone. That was 
probably in reference to the fact that, you know, when the 
President calls, you respond. On second thought, what are you 
responding to?
    So I would hope that as a result of this hearing, we could 
have the lead, Madam Chair, of trying to all meet together. I 
think I like Congresswoman Norton's suggestion that we bring in 
the superintendents of the surrounding area within the region, 
and all of you meet and find out, you know, who is on the team, 
and do we have plans for the team to coordinate, when needed?
    That is just a general statement to whoever wants to 
respond. I hope all of you will. Thank you.
    Mr. Rogers. Madam Chair, if I may, with respect to the 
regional response, the area and local governments and the 
District, we are meeting together. The District has taken the 
lead in developing a new response plan, in conjunction with 
FEMA.
    I met yesterday with representatives of FEMA, and they will 
be joining the Regional Task Force. Because it is my view that 
FEMA National Capital plan and the District plan can very well 
serve as the foundation for a regional plan, as well.
    With respect to the superintendents, that is an excellent 
suggestion. They have not been at the regional table in a 
formal way through COG, although the superintendents were on 
the conference call, as I pointed out, with respect to school 
closings.
    But I think that the suggestion that we incorporate perhaps 
one of the emergency support teams; that includes an 
educational link, Peter, where we look specifically at what 
needs to be done in the educational area. With the 
superintendents, that is an excellent suggestion.
    So we will continue our work at COG. This Task Force is 
moving forward quickly, working with local jurisdictions, and 
working with FEMA and the Federal partners.
    Let me just say that I think that it is a positive 
development that we now have the Federal Government as an 
entity engaged in a regional discussion. That is a positive 
development, because we are a National Capital Region. But in 
the past, that level of interface has been far less than 
desired.
    I think going forward, we can finally, with all of the 
stakeholders at the table, think and plan for how we can 
prepare the National Capital Region in a coordinated way, so 
that we respond and are protected in a coordinated way.
    Ms. Watson. Madam Chair, if I might conclude my inquiry, 
can this subcommittee ask for a meeting of all these different 
agencies, with the National Director of Homeland Security, and 
report back to us on the coordinated effort?
    We need something to assure this Nation. Every time we 
meet, we are meeting with a single unit. We tried to bring them 
all together in California. But we need to reassure people that 
we have got plans laid out that include A, B, C, D, and so on. 
Everyone is ready. Everyone is up to the task. We do not have 
to let them know how it works, because we do not know, yet.
    But if we can ask for a report from that meeting and who 
all is included in the meeting, so that we might report back. 
As representatives of the Federal Government, as we go back to 
our respective districts. They want information, as accurate as 
we can give it to them, as to what we are doing. Are we in 
charge? Are we taking command?
    I think that maybe this subcommittee, the Subcommittee on 
the District of Columbia and Government Reform, might be the 
one to actually ask for a report. It is going to be just a 
draft, because it is developing. We are doing OJT with this, 
on-the-job training. You know, we are making it up as we go 
along.
    But I think what we need is some assurances to the people 
that you indeed are in charge and we have a plan.
    Mrs. Morella. You know, we will look into how we can do 
that kind of coordinating. But I was thinking, I would 
certainly like to have a charge from each of you, with regard 
to specifically what the steps are and who the people are, who 
are in those particular positions.
    If we could get in touch with you about how we could do 
this, it would be awfully good to see a graph and see what 
happens with the emergency, who does what and where it goes. If 
you would consider that, I think it might be very helpful.
    I want to ask, I guess this would be Mayor Williams and 
Councilwoman Cropp, the District has requested, from the Office 
of Management and Budget, and you mentioned that in your 
opening statement, $250 million for emergency preparedness.
    How would the requested funds be used, as OMB, at this 
point, is only recommending $25 million? What potential risks 
will not be addressed, if only $25 million in funds are 
provided?
    Ms. Cropp. Well, the listing that we submitted to you very 
clearly talks about different issues such as the types of 
engines and trucks that we would need, the training that we may 
have to have with regard to chemical and biological and 
radioactive hazards that we may have to have; what we would 
need to have with regard to equipment for our police 
department, for our fire department; crime scene investigation.
    It talks about, in the report that we have asked for, the 
different types of radio and transportation needs that we have 
for us to contact each other.
    I guess the question is, which one of those things do we 
want to give up? Do we give up transportation, so that we do 
not have the appropriate vehicles to respond?
    Do we give up the appropriate type of equipment for our 
fire and police department, so that if a building was on fire 
or if they needed to come and rescue people, they do not have 
the equipment so that they could go into the appropriate 
building to rescue those individuals?
    So if, in fact, we do not get the dollars that the city has 
identified, that we need to protect the citizens here and also 
the Federal presence here, which building will we not be able 
to respond to; which Federal building; which local building? 
The Mayor can give more specifics on that.
    But the reality is that we are trying to buildup our fire 
and police department. While we are trying to buildup our fire 
and police department, we are also trying to address new needs 
that none of us had anticipated that we would need to identify.
    So it means that we would have to go back to our list, 
eliminate some things that we think are needed, and pick and 
prioritize. I would hope that you would look at our entire 
list.
    Mayor Williams. Just to expand on what Chairwoman Cropp has 
just said, I wanted to get the exact figures for you, to really 
make the case that she has already made.
    That is, we have requested $250 million. If we were to get 
$25 million, this would be like a nightmare game show. I mean, 
which door are you going to pick. No one likes this choice. We 
are going to pick fire and EMS and police, because that is your 
first order of public safety, security response.
    But having said, it is a horrible choice, because what are 
you giving up? Well, for example, in case anyone has been 
paying attention, we have just had a major health situation in 
this city. We are giving up a major expansion of our health 
response. That was $23 million.
    We just finished talking about evacuation and the need to 
do a better job in managing these intersections in our 
evacuation routes and emergency access routes.
    One of the things we have learned, for example, is that the 
best thing to do in an emergency, in terms of an evacuation, is 
to use your police personnel to allow the signalization to 
work.
    You know, a law enforcement person may have the best 
intentions, but basically, if they are sitting here managing 
one intersection, and someone down the road is managing another 
intersection and there is no coordination, no one is really 
helping. So we need the signals to work.
    But for the signals to work and for that traffic management 
plan to work, we need the resources to put it into place.
    We have all talked about communications. How are we going 
to get better communications in place without a technology 
investment?
    As an example of communications, all the many, many law 
enforcement agencies need to better communicate. Right now, we 
do not have any single frequency on which to communicate. We 
need communication.
    You talk about the emotional trauma of all this; mental 
health. We talk about the schools' involvement in all this. How 
are we going to get our schools in the situation they should be 
in, without a major investment in preparedness and security 
arrangements for our schools? That was $76 million.
    So the $25 million would force us to make some, I think, 
draconian and really tragic choices, in terms of our emergency 
preparedness. We are hoping that the Congress will see to 
expand this effort, at a minimum, to the order of magnitude of 
around $100 million.
    I forgot to mention this, and this is a horrible thing to 
talk about. But we are talking about the horrible situation of 
contingencies here. With our Chief Medical Officer, we are 
trying to get our Chief Medical Officer on his feet to begin 
with.
    We at least ought to be able to designate $2 million for 
those critical functions in these kinds of emergency 
situations: communication, scene investigation, supplies in 
terms of all the supplies needed for, God forbid, a crisis 
situation as could be faced; additional vehicles. We have got 
vans and vehicles right now that need replacement at incident 
command systems. These are just examples of where the resources 
are really critically needed.
    Mrs. Morella. Does FEMA get involved with doing an 
assessment of the need of the various items that are on this 
list?
    Mr. Kasprisin. Madam Chairwoman, we do. We have a system in 
place that is known as a capability assessment. It was really a 
self-assessment, prior to September 11th.
    Last week, we launched, from our regional teams, 
representatives from a number of different agencies to look at 
all State and not all local plans, but certainly the District 
is included.
    In fact, our Region 3 had just finished that with the 
Emergency Management shop in the District. We are going to 
prepare a report for Governor Ridge of the results of those 
investigations or assessments.
    Within such a short period of time though, we are going to 
be unable to get down to the level of detail, as the Mayor has 
already articulated, that is needed.
    Mrs. Morella. You have got the Appropriations Committee 
that will be looking at this. I guess you have got a hearing 
next week. So we wish you well on that.
    My final question is just simply because I have HHS here. I 
want to ask about whether or not there has been an assessment 
of the District's health care system, in order to determine 
whether or not the health care system has the capacity to 
handle the various health care risks.
    I know on our next panel we have Mr. Malson, who is going 
to be talking about the Hospital Association. But I wanted to 
get it, maybe from your point of view, or if anyone else wants 
to comment on it.
    Mr. LePorte. Sure, the current process has been to develop 
guidelines for bio-terrorism and bio-agents.
    Of course this is an interactive process, but one of the 
next steps is to start to focus in on what we are calling a 
surge capacity. In some senses, there is already a capability 
to deal with surge capacity, through the National Disaster 
Medical System.
    This is where beds in concentric rings going out from the 
District are identified as beds to which patients can be moved 
to allow for space for more critical patients or more emergency 
patients to be handled.
    We started looking at capacities in the national area back 
in 1995, actually, in establishing the first National Medical 
Response Team here in the District, which has now served to be 
the model for not only the other NMRTs in the United States, 
but also the Metropolitan response systems. We have been doing 
these assessments and responding by providing capacity since 
1995.
    We are at the stage of guidance for health response, in the 
event that a bio-event has been issued. The jurisdictions 
around the District and in the District are using this guidance 
by which to formulate plans.
    We now have four standing subcommittees that are working on 
these issues. There is a blood subcommittee, which is headed by 
the Montgomery County Department of Health and Human Services.
    There is a communications subcommittee that is being headed 
by the D.C. Hospital Association. There is a response 
subcommittee, which is being headed up by the Virginia 
Department of Health. Then there is a surveillance 
subcommittee, that is being headed up by the D.C. Department of 
Health.
    As we move forward, we will be integrating more and more 
specific planning into our ability to respond, as well as 
identifying the resources that we need for a specific type of 
event.
    What I mean is that a bio-event generates different needs 
than an airplane crash, which generates different needs from 
other kinds of natural disasters.
    So this is an evolving process, and our next step will be 
looking at the surge capacity, and how we would specifically 
deal with that within, first, the National Disaster Medical 
System, which we are confident will give us a robust response; 
but also identify if there are any peculiar needs that have 
gone undetected, as yet.
    Ms. Cropp. Madam Chair, in the request that the Mayor has 
submitted, there are specific items with regard to health 
requests.
    For example, chemical/bio equipment for onsite response is 
something that we did not have a need for in the past, that we 
obviously need now; to have bio-equipped vehicles, mobile 
laboratories, so that the appropriately trained personnel would 
be able to respond immediately; so that we have the 
pharmaceuticals necessary for treatment.
    We have seen with the anthrax that there was a definite 
need for certain pharmaceuticals. We need to have a sufficient 
supply for our Department of Health responders and the MPD 
responders and others in distribution.
    The hospitals need to have containment facilities at their 
local hospitals, and for the containment facilities that they 
are talking about, there is a cost that is associated with 
that.
    As the Mayor spoke just previously, unfortunately, there 
will also be a need to strengthen our Medical Examiner's 
Office. Our Medical Examiner's Office was not at a level that 
it should have been in the past, and we were just trying to 
catch up with it. Well, now there may be a need for us to do 
more things with that.
    So there are specific health needs that are part of the 
plan that the Mayor has submitted to you, and they are 
identified with the costs associated with them.
    Mrs. Morella. And there is the need to know what hospitals 
can handle what kinds of problems, or what kinds of cases, so I 
will be exploring that later on with you. But I see that this 
is critically important in the region, that we know who does 
what, how many beds are available, etc.
    Do you want to comment, Mr. Rogers?
    Mr. Rogers. Yes, Madam Chair, in my testimony, I refer to a 
planning guide, and it is for a bio-event in a metropolitan 
area.
    COG has had a Bio-terrorism Task Force for the last 18 
months. They finished their report on September 6th. Mr. 
Malson, who is Chair of that Task Force Committee, is on the 
next panel, I believe, and will tell you more specifically 
about it. But that kind of information is included in that bio-
event planning guide and its report.
    Mrs. Morella. I just heard that the report has not been 
issued, yet.
    Mr. Rogers. No, it has not, and it will be issued in about 
a week. It is an important document. But more importantly, as 
Mr. Malson said to me, was the process of all of the right 
people being at the table to develop this document. That is 
because having the right people at the table laid the 
foundation for the relationships that have helped the region 
deal with the current crisis.
    That document will be available. I think it is an excellent 
framework for addressing the health issues in a bio-event or 
bio-chemical situation.
    Mrs. Morella. Thank you very much.
    Congresswoman Norton.
    Ms. Norton. Thank you very much, Mrs. Morella.
    The District is going to get $16 million from this 
appropriation, if we ever get it out of the Senate. You are 
going to have to decide, because that is money that was not 
anticipated. So if we can go back to be as specific as we can 
on this minimal $100 million that we have now.
    I believe that the Mayor mentioned something about anthrax 
and $23 million. Did I hear you correctly on that; the health 
component of the plan?
    Mayor Williams. I was just saying that the past couple of 
weeks have highlighted the necessity that in working with the 
private hospitals and our Health Department, we have a network 
response capability to meet a bio-terrorism threat.
    Ms. Norton. Dr. Walks mentioned to me that there were 
direct expenses flowing from that. I asked him to get me 
information on that.
    The reason is, we were able to get $6 million. I do not 
know how much of that is left now, but the President can write 
out the first $20 billion. We got that for your overtime, for 
the police. It does seem to me that this falls into exactly the 
same kind of category: a completely unanticipated expense, that 
nobody should have to pay for, up front.
    Mayor Williams. I think we provided you with a list of all 
the agencies and their expenses in all these different areas, 
and the need, you are right, to tap into Federal resources, 
without triggering, I think it is the Stafford Act, in a 
declaration of emergency, which I think none of us wants.
    Ms. Norton. Yes, I would just like to get as much as 
possible out of this first $20 billion, because everybody is 
coming in on the second. What we have had is up-front expenses, 
that nobody else has had.
    I am particularly interested, as I said in my opening 
statement, in the pressure you are under as a government, as a 
result of this. Mayor Williams, you say that New York 
anticipates a 2.5 percent of city revenue lost, because of 
September 11th, and you anticipate a 3.5 percent loss of 
revenue.
    Now I have got a question about that. Your testimony says 
10,000 small businesses are at risk, and 24,000 jobs could be 
lost. That is before these figures were in, so I do not know if 
you were basing that on anticipated unemployment figures of the 
kind we received today or not.
    It is an astounding figure in your testimony; almost half 
of the members of the local hotel and restaurant employees 
union are unemployed. That is astounding.
    Because even leaving out all these other businesses in this 
town, because if you look at almost any business in this town, 
and it is not two-thirds, but 80 to 90 percent of the other 
businesses employ people from the region. Many of these people 
live in this town.
    That is a figure that is extremely alarming. I have seen 
some reports that during the Persian Gulf war, it took the 
District about a year to get back to normal in tourism.
    So I am going to ask you, therefore, how much of your 
reserve do you anticipate using in 2002; and whether you think 
there will be any difficulty paying it back in 2003, as you are 
required; and whether you are anticipating doing what 
apparently others in the region have done?
    For example, in Maryland, they are doing anticipatory 
budget cuts. You wait until you get hit, and then you cut far 
more than if you do cuts early on. That is why the District 
went down. The District went down because it waited until the 
very end, and then the whole Government went down with it.
    So first I am going to ask you about the reserve for 2002. 
Are we going to use it all; is there going to be anything left 
in it; are we going to be able to pay it back in 2003; and are 
you, the Council and the Mayor, contemplating where you can cut 
back, or are you waiting to see whether you will have to cut 
back?
    Mayor Williams. Well, first of all, Congresswoman Norton, I 
think you know better than anyone else the fragile nature.
    While it is substantial, we are so proud that we were 
leading the country, for example, in our office economy; 
leading the country prior to September 11th in our hotel 
occupancy; leading other major cities in our unemployment rate.
    I mean, there are so many different indicators. For the 
District to be noted by many business magazines as the No. 1 
place for doing business really spoke volumes about where we 
were prior to September 11th.
    Now after September 11th, you are right, it has had a major 
effect on our hospitalilty/tourism industry, which as you know 
is our No. 2 industry in the city.
    The immediate attack on the Pentagon, the closure of Reagan 
National Airport, the closure of various streets, the messages 
that are inadvertently sometimes sent, the limited access to 
the White House now and to the Capital, have all had a big 
effect on these visitors that would otherwise come to the city.
    What has the District done? I am proud to say that even 
though the District, despite its recovery, recognizes that we 
have a fragile budget balance, and you know that our tax base 
is not really a tax base to brag about; while our economy was 
strong, and I think it will become strong again, we are 
artificially structured in terms of our access to our tax 
basis.
    Fifty percent of our property is off limits. Our income tax 
base is off limits. We are forced to serve a huge population of 
millions, with a tax being provided only by our District 
citizens.
    That tailors and colors everything we do going forward. So 
despite all this the District on its own, I am proud of the 
fact that the Mayor and the Council have had an unprecedented 
level of cooperation since October 1st.
    They have come together, for example, to construct a loan 
guarantee program for our small businesses to the tune of $100 
million. We have come together to expand unemployment insurance 
for our workers who have been unemployed. We give them 75 
percent of their wages, and allow them, if they have part-time 
employment, to supplement that, to get them somewhere back on 
their feet.
    I am proud, for example, that working the Council and our 
corporate leadership, we have put together a disaster relief 
fund of now approaching, I think it is $2 million, to provide, 
in addition to measures we have already talked about, 
transition assistance for people.
    So we are doing what we can on our own to provide the 
needed relief, but we need the help of the Federal Government, 
because all of this has been occasioned by national 
circumstances and/or national decisions. We really need that 
help.
    Going into this next year, we are looking at anywhere from, 
I have heard, figures of $80 million to $150 million. We are 
able to absorb a figure of the order of magnitude of $100 
million with the reserves that we have built up.
    Be reminded, and it turns out to have been prophetic now, 
we have very strict requirements on our budget reserves, and 
very strict requirements on our cash reserves. Our cash 
reserves, at 7 percent, are leading the country in State and 
local governments, in the amount of money set aside in cash.
    That is a good thing now, because those cash reserves are 
able to satisfy this immediate hit of around $100 million. 
That, with spending plans, unless things get dramatically 
worse, I think will allow us to get through 2002 with spending 
plans and cash reserve arrangements that are already in place.
    But then what do we do in 2003? Obviously, if we are using 
the cash now, that puts pressure on 2003. I think we may have 
to look at the rate and the pace at which we were meeting our 
cash reserve requirements, because of this impact.
    We certainly have to look at it again. I cannot say this 
enough. Federal help in meeting these responsibilities; when 
you have a limited tax base, for the District to be going the 
extra mile with local self-help efforts to meet these 
responsibilities, I think it would be tragic if we did not get 
any Federal help to meet our answer to what is, in fact, a 
national/Federal challenge.
    Then finally, I think the legislation that you have 
proposed, and we can get into this in the next hearing, but the 
legislation that you have proposed over the years in terms of 
tax incentives for the District, I think clearly ought to be 
part of our stimulus approach.
    The measures that you have talked about, in terms of a tax 
credit to address firmly and decisively, once and for all, the 
structural imbalance in our budget is clearly called for over 
the long run. Because what I am saying is, we may be able to 
meet the needs in 2002, but all it does is just radiate out in 
2003/2004, because of this fragile budget balance we have.
    Finally, I think I can speak for the Council very 
emphatically on this. One thing that we have learned is, the 
last thing we want to do is bring back the Control Board. I 
think we are willing to take the political hits that are 
necessary to see that we are working in advance.
    We already have our financial people, both the Council and 
the CFO staff, working on contingency plans now, and if 
necessary, apportionment plans now, to see that we are working 
ahead of time to avoid coming up in July or August saying, oh, 
we have got a big problem; what are we going to do?
    Ms. Norton. I noticed you have a tax cut that has a trigger 
to it. Do you think that if the economy, in fact, goes sour, 
that these tax cuts do not need to automatically go forward? 
That was put in there as a safeguard. What do you anticipate 
with respect to those tax cuts? Are you still going to keep 
giving tax cuts with this happening, is what I am asking.
    Mayor Williams. Yes, obviously, if the situation were to 
deteriorate to a very ominous level, everything is on the 
table.
    But if it were to deteriorate beyond our projections, and 
these triggers in the tax package are put in place, then I 
think we ought to honor those triggers.
    Ms. Norton. Part of what is happening in the region is that 
the tax cuts went out. You have got a deficit in Virginia, and 
you had more of a surplus than Maryland did. That is how 
prudent you were. Part of it is because D.C. did not go out and 
spend a lot of its money, and you wisely put in a trigger.
    I am very pleased with what you have done with unemployment 
insurance. I have just issued a release, given the unemployment 
in this town and how it is galloping along, to creditors, to 
say that in light of what is happening to the mail in D.C., 
that they not entertain an interest and late payment windfall 
at the expense of the mail.
    There is no ward in the District of Columbia that has not 
had its mail delayed. We did research and found that the 
average late payment is $24. On top of the unemployment that we 
are experiencing, that seems to me to be terrible. I am asking 
the Mayor and the Council to pass a resolution or do something 
that would also call upon local business, utilities, 
government, not to charge for these October/November problems, 
as Brentwood still is not open.
    I am almost through. Could I ask you, the Council passed 
some legislation for loans and loan guarantees. I must say, I 
look with a jaundiced eye, if only because the District had one 
of the most atrocious rates in the country, on people giving 
loans to people and never getting the money back. I understand 
that yours would go through banks and so forth.
    But the SBA has loans, and apparently District small 
businesses have come forward in greater numbers than elsewhere 
in the region. They give people 30 years to pay back. They have 
obviously 100 percent Federal money, and up to $1.5 million per 
business.
    Did anybody in the city look to make sure you were not 
redundant to a 100 percent federally funded program? If you are 
not redundant, in what way are you different?
    Mayor Williams. Well, I could get you the exact parameters 
and details, Congresswoman, on how we are different. But I 
know, and we talked about this, that this is what you always 
have in these programs. It is a gap analysis of ``but for.'' 
But for this loan program, your business is going to have a 
cash-flow situation.
    Implicit in that is that you have to have gone to the SBA 
and made your request to SBA, and then show us your analysis, 
as opposed to just coming to us, asking for easy, free money, 
without any of the necessary due diligence that you mentioned.
    Ms. Norton. I think that is important, because it is D.C. 
money.
    Mayor Williams. Absolutely.
    Ms. Norton. And to the extent that we can make the Federal 
Government pay for the losses to our businesses, I hope we are 
going to make them do it, rather than step up to the plate 
ourselves.
    Mayor Williams. Absolutely, and I am sure you understand 
the local level of effort, as well.
    Ms. Norton. Yes, and I think it is a very important 
initiative.
    Mayor Williams. Right.
    Ms. Norton. I just want to make sure that we are not paying 
for what the Feds ought to be paying for, for losses that they 
inflicted upon us.
    My last question is, I know that the city had taken a very 
important initiative. For the first time, the city was going to 
have to advertise to get tourists. This was after September 
11th, when people were afraid to get on planes. The Congress 
had done almost nothing to encourage people to get back on. Our 
airport was closed.
    Then that got stepped on by the anthrax scare. Now we have 
got the message going out that, hey, we are not sure whether 
the planes are safe yet; and remember, their airport was closed 
down, which means that they may really not be safe; and by the 
way, there is something called anthrax there.
    At a town meeting that I had on Monday, it was a huge 
meeting, and over 500 people came. A teacher from Prince 
George's County said that there was a directive out in the 
region not to bring children to our museums. This is a region 
which is suffering from the same kind of tourist drought that 
we are suffering from.
    Of course, the last time I heard, there was not any anthrax 
found in any museum. The House was closed down before any 
anthrax was even found here. So, obviously, that sent a message 
out to everybody, do not even wait to see if there is anthrax. 
Just close the joint down. These folks are closing the District 
of Columbia down. That is very, very disconcerting to see this.
    I would like to know what you think you can now do, now 
that you appear to have gotten the anthrax business under 
control and our airport is open. Did these ads go out? Were 
they used anywhere in the country?
    Are there any more ads now going out? Who is paying for 
them? What are we going to do? How can we get a counter-message 
out there, which I think is the right message? I think the 
District is the safest city in the United States.
    Mayor Williams. I agree.
    Ms. Norton. I truly believe that. It is being patrolled in 
the air, in the waterways, in the streets, like no city. If you 
want to be safe, leave where you are and come to the District 
of Columbia.
    As for anthrax, your mail is not being sanitized. Ours is 
going to go to Ohio, and I cannot tell you about your mail. 
Anyway, it is not catching. All of these messages, if we do not 
get those messages out there, I am not sure when we are going 
to recover.
    So I have got to ask you, Mr. Mayor, in the midst of all of 
this, of the expert handling of the anthrax crisis, of having 
taken proactive steps to get tourists back, and then having 
that message stepped on, stomped on, by anthrax, what are you 
going to do now to make people understand that they should 
visit their Nation's Capital?
    Mayor Williams. Well, I think people put this in 
perspective. I mean, you were out with us and some other 
Congress people, when we were out at D.C. General, where they 
were doing treatment, where they have now treated over 10,000 
people.
    I remember my mother was talking to one of the doctors. She 
says, you know, you have got to get me these pills, honey, 
because, Lord knows, I do not want to catch Amtrak. [Laughter.]
    So to your regular citizen, this is just all one big blur, 
and I think it is really important. I think the point is, it is 
really important for us to bring this into focus, and then 
bring this into perspective.
    Shortly after this, and Chairman Cropp was involved and you 
were involved, we brought together a business task force. They 
are helping us assess the economic damage. They are helping us 
with tourism promotion.
    Together with the Council, we have now put together with 
our business and industry people $2 million for a marketing and 
promotion effort.
    This was really planned kind of in concentric circles. 
There was going to be an initial local effort. We had the Metro 
free fare weekend, which was actually very, very successful. 
Moving from a local effort, it was then to go into a kind of 
regional Mid-Atlantic effort, and then to a national global 
effort.
    So I think the good news here is that we have not yet 
launched that national global effort. So major expenditures 
have not been trumped by this anthrax situation.
    I guess I would leave you with this major point. The same 
kind of coordination that is needed in terms of our security 
arrangements and the balance that has to be struck there, we 
are going to need the same kind of coordination on the 
marketing and promotion front.
    So, for example, you need a high level of coordination 
between the different branches of the Federal Government and 
the District, if you are going to get school kids back. The 
school kids, as you say, they are not going to come back if the 
Capital has got limited access and/or is closed, and the White 
House has got limited access and/or is closed.
    That has to all be coordinated ahead of time. We need the 
same kind of political leadership, coordinated and working 
together with a message, in the same way that Rudy Guiliani 
brought together all the Broadway stars saying, come to New 
York.
    We need to get all the political leaders of this city, 
regardless of partisanship or background, standing somewhere 
with the President and saying, come to Washington, DC. That is 
the level of coordination that we have not yet had, but I am 
confident we can produce with your help.
    Mrs. Morella. I see that as your role, Mr. Mayor. We will 
rally around you.
    Mayor Williams. Yes.
    Ms. Norton. If I may say, Madam Chairman, we do not have 
quite the talented and good looking stars that they have in New 
York in that wonderful advertisement that they did.
    But I promise you this, I am going to ask Speaker Hastert 
and Minority Leader Gephardt to stand with you and me, to 
invite people to come back here, when this place opens for 
tourism, and to say, do not simply come to your Congress; come 
back to your Nation's Capital.
    Mayor Williams. Absolutely, and we are looking forward to 
Council Chair Cropp being with us.
    Ms. Norton. Thank you very much.
    Mrs. Morella. We will go to Congresswoman Watson for the 
last questioning, if you have any.
    Ms. Watson. I have no further questions.
    Mrs. Morella. Well, I want to thank this wonderful panel. I 
know we kept you a long time. I think you know that we will be 
submitting some further questions.
    This is a very complex project and program and hearing that 
we have today. The issues are so very important and we have 
never faced them before, but you have been just terrific.
    I want to give my thanks to the Mayor, my thanks to the 
Council Chair, my thanks to FEMA and HHS, COG, and our Police 
Chief, for being here. You have done a great job. I look 
forward to further communications and working with you. Thank 
you very much.
    Now we have our second panel that has been ever so patient. 
Please know that we appreciate it enormously. This has been 
such a very important topic. Having all of the stakeholders on 
the first panel and the second panel has just taken an 
inordinate amount of time. But I thank you all very much.
    As I had done with the first panel, it is the policy of the 
committee to swear you in, so if you would stand and raise your 
right hands.
    [Witnesses sworn.]
    Mrs. Morella. It is now recorded as an affirmative 
response.
    Mr. Cogbill, we were just with you yesterday, is the 
chairman of the National Capital Planning Commission; Joseph 
Moravec, Commissioner of the Public Building Service, GSA; and 
Robert Malson, president of the D.C. Hospital Association; 
thank you, gentlemen.
    I will start off with your testimony, Mr. Cogbill.

STATEMENTS OF JOHN COGBILL, CHAIRMAN, NATIONAL CAPITAL PLANNING 
   COMMISSION; JOSEPH A. MORAVEC, COMMISSIONER OF THE PUBLIC 
   BUILDING SERVICE, GSA; AND ROBERT MALSON, PRESIDENT, D.C. 
                      HOSPITAL ASSOCIATION

    Mr. Cogbill. Thank you, Congresswoman Morella; and thank 
you for inviting us here today, Congresswoman Norton and 
Congresswoman Watson.
    As you noted, my name is John Cogbill, and I am the 
chairman of the National Capital Planning Commission, and a 
member of its Interagency Task Force, which examined the impact 
of security measures on the historic design of our Nation's 
Capital.
    The Commission recognizes that security has become a 
necessary and fundamental requirement of daily life in this 
city. At the same time, we are concerned about the effect of 
closed streets, hastily erected jersey barriers, concrete 
planters, and guard huts on Washington's Monumental Core. These 
installations are unsightly, and do not reflect the landscape 
of a free and open democratic society.
    For this reason, in March of this year, the Commission 
established an Interagency Task Force to examine the future of 
Pennsylvania Avenue in front of the White House and, more 
generally, the impact of existing security measures.
    Serving on the Task Force, in addition to myself, are 
senior representatives of the Secretary of the Interior, the 
Administrator of General Services, the Mayor of the District of 
Columbia, and the chairman of the District of Columbia Council. 
Richard Friedman, a presidentially appointed member of the 
Commission, serves as the Task Force chairman.
    In addition to senior representatives of other Federal 
agencies, who also serve and participated as members of the 
Task Force, were participating agencies such as the U.S. Secret 
Service, the Department of Justice, the Department of Defense, 
the Federal Highway Administration, the Commission of Fine 
Arts, the U.S. Capitol Police, the Architect of the Capitol, 
and the Advisory Council on Historic Preservation.
    In addition, the chairmen of the House Committee on 
Government Reform and the Senate Committee on Governmental 
Affairs, the Federal City Council, and the Downtown BID have 
all been represented in these deliberations.
    Our Task Force convened on March 23rd, and members agreed 
that their objective was to identify urban design solutions 
that would set a benchmark for security design throughout the 
Federal city.
    The Task Force recognizes that although, in the wake of 
September 11th, increased security measures will be necessary 
to protect Federal facilities throughout the Nation's Capital, 
such measures can and should be implemented in a manner 
consistent with our democratic values.
    The Task Force has forwarded its recommendations to the 
full commission yesterday, and at that time, our commission 
approved those recommendations for transmittal to the Congress 
and to the administration. I would like to briefly highlight 
those recommendations.
    First, our commission proposes to prepare and implement, 
with the help of other Government agencies, the Urban Design 
and Security Plan, which will identify permanent security and 
streetscape improvements to ensure a secure and distinguished 
public realm in the Nation's Capital.
    We are pleased to report to you that the administration has 
requested nearly $800,000 as part of the emergency supplement 
now awaiting congressional approval to fund this plan.
    The plan will include an array of landscape treatments, 
street furniture, bollards, and recommend design solutions for 
Pennsylvania Avenue, President's Park, the Federal Triangle, 
and our National Mall.
    Security measures must protect our citizens and the 
environments that honor and house our democracy. However, we 
believe that security measures should enhance the public 
environment of the city, and they can do so when conceived with 
sensitivity and imagination, and implemented with good urban 
design as one of their major objectives.
    Our commission has also recommended that NCPC, along with 
one or more nationally recognized urban designers, undertake 
the planning and concept design for the proposed plan. Project 
design and construction would be undertaken by an appropriate 
agency, such as GSA, the National Park Service, or the District 
government. This unified approach would ensure that the work is 
done properly, professionally, and not in a piecemeal fashion.
    The commission also recommends that Pennsylvania Avenue in 
front of the White House remain closed to normal city traffic 
at this time. If, in the future, the security environment or 
security technology improves, this recommendation could be 
reconsidered.
    Because the closure of this part of Pennsylvania Avenue 
removes a major east/west traffic artery, we recommend the 
implementation of traffic improvements such as synchronizing 
traffic lights, more strictly enforcing parking rules, and 
redesigning intersections. Based on the experience in other 
cities, we know that these simple steps can greatly help to 
relieve traffic congestion.
    Pennsylvania Avenue between 15th and 17th Streets has been 
unsightly for too long. We envision it redesigned as a 
beautiful, landscaped civic space that welcomes pedestrians and 
that respects the historic setting of the White House.
    We believe it is possible to create a distinguished public 
space and promenade that maintains the historic integrity of 
the street, and permits the Inaugural Parade to follow its 
traditional route.
    Finally, we are commended that the Federal Government fund 
all costs associated with the development and implementation of 
the Urban Design and Security Plan. This would provide us the 
opportunity to implement the traffic improvements, the 
Circulator, and the tunnel assessments, which were set out in 
our report. If the tunnel is built, its funding should also be 
part of a Federal obligation.
    I mentioned briefly the Circulator system. This is a new 
transit service, which is now being planned for our downtown 
area. This is actually first described in the NCPC Legacy Plan.
    Our Commission recommends implementation of the Circulator 
to permit the partial and limited use of Pennsylvania Avenue in 
front of the White House. This would help mitigate traffic 
congestion by restoring an important cross-town transportation 
link.
    The city's long-term viability requires adequate east-west 
transportation capacity. The loss of Pennsylvania Avenue 
restricts that east-west access.
    Therefore, we are calling for serious consideration of a 
tunnel within the Pennsylvania Avenue or the E Street 
Corridors, combined with the Circulator and combined with wider 
application of traffic improvements, as I have previously 
mentioned. We believe that a study of this tunnel and its 
potential impacts should be undertaken immediately and 
completed within 18 to 24 months.
    In summary, we believe that the Urban Design and Security 
Plan will promote the safety of those who live in, work in, and 
visit the Nation's Capital, while preserving the openness and 
historic design that have made Washington an expression of 
American ideals.
    Madam Chairwoman, that concludes my formal remarks. I will 
be happy to answer any questions that you or the other members 
of your panel might have. I would like to thank you for 
allowing us to appear here today.
    Mrs. Morella. Thank you very much, Mr. Cogbill. I also want 
to congratulate you on assuming the Chair of the National 
Capital Planning Commission. Little did you know that you would 
have so many challenges that you would be facing.
    Mr. Cogbill. It is a challenge and a privilege, Madam 
Chair.
    Mrs. Morella. That is very nicely stated.
    Mr. Moravec of GSA has been very much involved, and I thank 
you for being here for us. Thank you.
    [The prepared statement of Mr. Cogbill follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.065
    
    [GRAPHIC] [TIFF OMITTED] 81954.066
    
    [GRAPHIC] [TIFF OMITTED] 81954.067
    
    [GRAPHIC] [TIFF OMITTED] 81954.068
    
    Mr. Moravec. Madam Chairwoman, Congresswoman Norton, thank 
you for allowing me the opportunity to testify on behalf of GSA 
at this hearing on emergency preparedness in our Nation's 
Capital.
    I am pleased to discuss with you the role and 
responsibilities of GSA in preparing for and responding to 
domestic disasters and national security emergencies, and on 
GSA's efforts to coordinate its role and responsibilities in 
the Nation's Capital with local and Federal Government 
agencies.
    GSA is assigned specific responsibilities for domestic and 
national security emergency preparedness under Executive Orders 
12656 and 12472. These key responsibilities include: providing 
rapid and efficient logistical support and telecommunications; 
assisting client agencies in their recovery efforts; providing 
support to those Federal agencies that assist victims of 
disaster or emergencies; and ensuring the continuity of GSA 
operations.
    These responsibilities are the same in peace time or war 
time emergencies. Since September 11th, GSA has faced its 
greatest challenge yet in carrying out these responsibilities.
    In the immediate aftermath of the terrible terrorist 
attacks in New York City and in the Washington, DC, area, GSA 
personnel nationwide went into action in accordance with our 
Continuity of Operations plans.
    Within 2 hours of the attacks on the World Trade Center in 
New York City, GSA had set up an emergency command center in 
New York, to begin providing affected agencies with the 
supplies and services needed to restore operations. GSA 
associates literally worked around the clock to produce 
logistical miracles within a matter of days.
    In the Washington, DC, area, soon after the attack on the 
Pentagon, officials at the Department of Defense asked GSA to 
locate, make ready for occupancy, and totally equip nearly 
850,000 square feet of space, to relocate DOD employees 
displaced from areas within the Pentagon affected by the 
attack. By September 17th, GSA had located and begun 
preparation for occupancy of 850,000 square feet for DOD in 
northern Virginia.
    At the same time, GSA has been called upon to provide 
additional space, facilities, and a wide variety of services to 
the Federal Emergency Management Agency, both in New York City 
and Washington, DC.
    Just 2 weeks ago, GSA also responded to a call for 
assistance from the Architect of the Capitol, as he sought 
furniture, computers, and other office equipment necessary to 
set up alternative office space for the Congress to carry out 
its critical functions.
    At the same time, GSA has responded with a security 
awareness and response posture that has been consistently at or 
near the highest levels called for by this national emergency.
    Madam Chairwoman, in national disasters like these, or in 
other national or regional emergencies requiring rapid agency 
action, GSA has attempted to coordinate its actions with other 
affected Federal, State, and local governmental agencies.
    GSA has been coordinating with representatives of the 
District of Columbia City Council and the D.C. Protective 
Services, prior to and following the September 11th attacks, to 
outline security and access requirements for certain common 
areas in the District of Columbia.
    Historically, when it is necessary for GSA to close a 
public thoroughfare or a public space in the District, GSA has 
coordinated its actions with the D.C. Department of Public 
Works and with other Federal agencies. We will continue these 
coordination efforts to develop the most viable solutions.
    We note that the District of Columbia, as the seat of our 
Federal Government, also has some unique authorities that allow 
Federal agencies and D.C. agencies to better coordinate their 
emergency preparedness.
    Section 1537 of Title 31 of the U.S. Code allows Federal 
and D.C. agencies to provide services to one another. While 
this inter-governmental authority is not limited to specific 
domestic or war time emergencies and disasters, it can 
nevertheless be used to rapidly address services-related needs 
that might arise in these situations.
    For instance, GSA could use this authority to assist 
District officials with many types of services, from snow 
removal during blizzards, to crowd control, to 
telecommunications support during Presidential Inaugurations.
    Finally, in response to a recent Federal law, and in an 
effort to better coordinate the jurisdiction of D.C. 
Metropolitan Police and certain Federal law enforcement 
agencies, and to assist in crime prevention and law enforcement 
activities, GSA recently entered into a Cooperative Agreement 
with the Metropolitan Police.
    In addition to enhancing our law enforcement abilities in 
and around our Nation's Capital, this Cooperative Agreement 
also should enhance our abilities to coordinate law enforcement 
activities and prepare for national emergencies like those we 
recently experienced.
    Madam Chairwoman, this concludes my statement. I will, of 
course, be glad to answer any questions that you or 
Congresswoman Norton may have.
    [The prepared statement of Mr. Moravec follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.069
    
    [GRAPHIC] [TIFF OMITTED] 81954.070
    
    [GRAPHIC] [TIFF OMITTED] 81954.071
    
    [GRAPHIC] [TIFF OMITTED] 81954.072
    
    [GRAPHIC] [TIFF OMITTED] 81954.073
    
    Mrs. Morella. Thank you very much, Mr. Moravec.
    I am now pleased to recognize Robert Malson, president of 
the D.C. Hospital Association.
    Mr. Malson. Madam Chairman and Mrs. Norton, I am Robert 
Malson, president of the District of Columbia Hospital 
Association, and I chair the Metropolitan Washington Council of 
Government's Bio-terrorism Task Force.
    DCHA represents all full service and most specialty 
hospitals in the District of Columbia, plus four Federal 
hospitals: the Veterans Affairs Medical Center, Walter Reed 
Army Medical Center, Malcolm Grew Medical Center at Andrews Air 
Force Base, and the National Navy Medical Center in Bethesda, 
MD.
    Your invitation to testify asked how the Federal and local 
governments coordinate to defend the Nation's Capital, and that 
you would examine the coordination of decisions and actions of 
Federal and local governments to ensure security.
    We coordinate through memorandums of understanding, 
planning, and frequent exercises. We coordinate vertically 
through private hospitals, universities, city and county 
governments, and the Federal Government. We coordinate 
horizontally, through regional MOUs, particularly through the 
Council of Government.
    Our Council of Government's Bio-terrorism Task Force, for 
example, has two members here today, who we just met in the 
audience. Behind me is Captain Elliott Grollman of the Federal 
Protective Service, who served with us for the 19 months in 
writing our plan. Over to our right, with his elbow on the 
chair, is Dr. Michael Soto, from the George Washington 
University School of Public Health and Health Sciences.
    DCHA hospitals were prepared to receive about 150 to 200 
victims from the attack on the Pentagon. We actually ended up 
receiving about half that many. Approximately 95 or so living 
victims came out of the Pentagon. The majority of those went to 
the hospitals in northern Virginia, and a few less than that 
came to the District of Columbia. Our colleagues in Maryland, 
particularly in Prince George's and Montgomery County, were 
standing by.
    Since the anthrax was discovered in the Hart Senate Office 
Building, DCHA has initiated and coordinated the National 
Capital Region's health systems' response by hosting daily 
conference calls among Federal, State and local health 
officials and hospital representatives, to enhance the 
metropolitan area's communications ability to share real time 
status reports on the current anthrax crisis.
    In addition, DCHA and our hospitals have added additional 
personnel, security, pharmaceutical, and other supply expenses 
for these essentially public health and public safety 
functions.
    For the last few weeks, our hospital emergency rooms have 
been inundated with concerned and frightened residents, who 
want to be screened for anthrax at the same time that the 
yearly influenza season is about to begin.
    We were pleased that the D.C. Department of Health began 
using D.C. General Hospital to administer testing and treatment 
in the early stages of the Brentwood Postal Service situation.
    However, if a more serious biological or chemical attack 
occurs, our hospitals are not prepared for a surge of 
inpatients that may require decontamination and/or isolation.
    While all of our hospitals have reviewed and updated their 
emergency response plans, the city must also be prepared to 
enhance the capacity of the D.C. General facility to 
accommodate mass casualty patients.
    It is not easy to reverse the trend of the last 10 years 
that dramatically reduced bed capacity at all District 
hospitals. It will take Federal Government assistance to 
provide the necessary resources.
    Furthermore, we urge the Federal Government, the Governors 
of Maryland and Virginia, and the Mayor of the District of 
Columbia to coordinate closely with the hospitals of D.C., 
Maryland, and Virginia, to provide immediate assistance to all 
hospitals that have tirelessly fulfilled these public health 
and safety functions since September 11th.
    None of the State and local governments or the hospitals of 
the region anticipated the added burdens that we are 
experiencing. Nonetheless, we are responding to ensure that the 
National Capital area residents have access to the required 
medical and health services.
    Our hospitals believe that there are a number of concrete 
steps that should be taken immediately. First, we need enhanced 
communication and coordination for all levels of alert.
    The D.C. Emergency Management Agency's Emergency Operations 
Center can be upgraded to facilitate the connection between the 
District's Department of Health officials with the hospital and 
private medical community.
    Second, health care professional credentialling during 
emergencies can be accelerated. Third, medical liability relief 
during emergency conditions will enable us to act more quickly 
and yet just as safely.
    Fourth, increased pharmaceutical reserves and medical 
supplies will ensure that our people will have what they need, 
should it be required. Fifth, under any one of a number of 
predictable scenarios, our hospitals will simply not have 
adequate security. The Metropolitan Police Department and the 
D.C. National Guard should be tasked and funded to address 
those requirements.
    Further, our hospitals fully support the Mayor's request 
made earlier this morning that he be given the authority to 
activate the National Guard in a wide-spread emergency.
    Finally, clear and precise public service announcements 
must be disseminated quickly, to ensure that our citizens have 
the right information to protect their health and safety and 
that of their families.
    I can assure you, Madam Chair, that the hospitals of the 
District of Columbia and the nearby suburbs of Maryland and 
Virginia continue to be committed to enhancing the coordination 
among the Federal, State, and local governments, and our 
private and Federal hospitals.
    We cannot continue at this pace without help. We are 
developing a detailed proposal on the specific types and 
amounts of resources needed, and will share it with the 
committee in the next 2 weeks.
    Again, we thank you for this opportunity to provide 
comments about emergency preparedness in the Nation's Capital. 
This concludes my formal comments. I would be happy to answer 
any questions that the committee may have, or to provide any 
information that the committee might need.
    [The prepared statement of Mr. Malson follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.074
    
    [GRAPHIC] [TIFF OMITTED] 81954.075
    
    [GRAPHIC] [TIFF OMITTED] 81954.076
    
    [GRAPHIC] [TIFF OMITTED] 81954.077
    
    Mrs. Morella. The three of you have presented excellent 
testimony. It is just too bad that we did not start at 7 a.m., 
so that we would have a full array of people, as well as the 
press. [Laughter.]
    I am going to ask each of you a question, and I will start 
off then with Mr. Cogbill. Again, congratulations on the Task 
Force report. Good luck with getting the kind of money that you 
need for the study of the tunnel.
    As I mentioned yesterday, I think that you have to have 
some assurance from the administration that there will be some 
funding for a tunnel, if that were to take place.
    But I agree with what Congresswoman Norton had said to, let 
us not give up on opening Pennsylvania Avenue. We think the 
traffic management changes are excellent, and the Circulator is 
excellent in opening E Street. But I would still like to think 
of it as temporary, and that maybe technology will allow us to 
open it.
    Here was something that we noted. The District of Columbia 
Home Rule Act established a National Capital Service Area, 
which covers the Federal Enclave, and it requires the President 
to appoint a National Capital Service Area Director, who would 
be responsible for obtaining police protection and maintain 
streets, with the exception of the grounds of the U.S. Capitol 
buildings, the Library of Congress, and the Supreme Court.
    To your knowledge, has this charter provision ever been 
implemented; and should a National Capital Service Area be 
established, in order to better coordinate street maintenance 
and physical security planning in that Federal monumental core?
    Mr. Cogbill. Madam Chairwoman, as I understand it, that 
position remains unfilled, I think, since the inception of that 
legislation, or at least the Chair position.
    With respect to the second part of your question about what 
should be done, certainly, from our role in the National 
Capital Planning Commission, as the professional planners for 
the Federal properties within the District, and having the 
advisory responsibility for other properties, we would 
certainly support and participate in that process, given the 
opportunity.
    We work very closely with the city. In fact, one of the 
things that I have tried to do, since coming to the Chair of 
this important body, is to work more closely with the city. We 
are reaching out, as you would expect, through the normal 
planning process, directly to the Planning Department, to the 
city's Department of Transportation, and to the other agencies, 
with whom we would interact on a regular basis.
    Mrs. Morella. Now in terms of that National Capital Service 
Area Director, who would appoint that person? Is that a 
Presidential appointment? Would it be your appointment, or the 
Commission's?
    Mr. Cogbill. No, ma'am, I do not believe it would be my 
appointment. I honestly cannot speak to that specific question. 
I just do not have an answer to that.
    Mrs. Morella. It might be worth, given the context of the 
current situation, to look into that. If you would share that 
with us, we would greatly appreciate it.
    Mr. Cogbill. We would be happy to respond.
    Mrs. Morella. Thank you.
    I will ask our representative from GSA about Federal 
agencies. Are they following the GSA guidelines regarding the 
installation of security barriers, Mr. Moravec?
    Mr. Moravec. First, let me say that no one who cares about 
this great city, including me, can observe dispassionately or 
without pain the closure of streets, which are vital to its 
life and commerce. I want you to know that I feel that way.
    The reality is that the Federal Government is not a 
monolithic command and control hierarchial organization. It 
consists of many agencies and branches.
    Agency heads, Congress, and judges can and do make 
decisions that they feel are necessary to protect their people. 
GSA cannot direct a Cabinet Secretary to do anything. We can 
advise and coordinate, and we do.
    In a couple of instances, in the case of the Treasury 
Department and the Department of Justice, they have authority 
to remove parking and to close streets, without even consulting 
with GSA.
    In all other instances, including instances where we have 
delegated the authority, as we often have in the case of the 
department's headquarters to manage and provide security at 
their facility, we are in contact with those agencies.
    We can direct an agency to the right people: to the Fine 
Arts Commission, to the National Capital Planning Commission, 
to the city agencies, to coordinate proposed closings. We can 
use what guidance we can to make sure that process is 
facilitated.
    Mrs. Morella. If they just neglect it, ignore it, or do not 
go to the relevant source to assist them, what would you do?
    Mr. Moravec. Well, as I say, we do our best to coordinate 
and advise and cajole.
    Mrs. Morella. That is the extent of your authority?
    Mr. Moravec. In reality, it is, yes.
    Mrs. Morella. Should it be changed?
    Mr. Moravec. Far be it for me to ask for a wider range in 
powers for GSA. But it is clear that there needs to be a 
broader coordinated effort amongst Federal agencies with regard 
to this decisionmaking process.
    Mrs. Morella. GSA is in charge of telecenters, right? You 
find the place where they do the telework that takes place with 
our Federal employees, and we are trying to promote more and 
more of it?
    Mr. Moravec. Yes, ma'am.
    Mrs. Morella. And I hope you are going to find a couple of 
them in Montgomery County, MD. It is a perfect location, to 
keep cars off the road.
    But I was speaking to the OPM Director, and there are 
benefits of telecenters for emergency response for Federal 
employees and probably for other essential workers.
    But can you see some merit in that? If you had an 
emergency, and you had to put people up places, like GAO tired 
to do with Longworth being closed and Hart being closed; what 
if you used the telecenters?
    Mr. Moravec. I can absolutely see merit in the existence of 
telecenters, even in the absence of an emergency. That is a 
very good, common sense way of deploying the Federal work force 
and making it convenient for people to be productive, and at 
the same time, to have other dimension to their lives.
    Mrs. Morella. And also as part of an emergency preparedness 
plan.
    Mr. Moravec. Certainly, anything that takes pressure off of 
dense urban areas in a time of crisis, in terms of people 
needing to be there would be a welcome relief valve.
    Mrs. Morella. Mr. Malson, we look forward to seeing that 
report that you worked on. I am delighted to know that there 
was such great coordination that took place there.
    I have just a couple of questions for you. One that I began 
to pose about is, is there an assessment of, let us say, the 
District of Columbia, and I would certainly think about it in 
terms of the region, too, the health system with regard to the 
capacity of each of these hospitals to handle the health care 
risks, the number of beds, isolation capacity, infection 
control, special centers for care, mass casualty plans, medical 
personnel employed, list of site, quarantine.
    I mean, there is a whole litany, and you could go on and on 
with that. But has any assessment been done, and if not, should 
there be more intensive and extensive assessment?
    Mr. Malson. Madam Chair, the overall answer is yes. Our 
hospitals in the District of Columbia are connected. Our 
emergency rooms are connected by a radio system, which we call 
the HMARS, the Hospital Mutual Aid Radio System. Every day, we 
do random radio checks on a 24/7 basis.
    Mrs. Morella. I did not mean to interrupt, but was done 
also before September 11th.
    Mr. Malson. Oh, we have been doing it for years.
    Mrs. Morella. So you have always done that.
    Mr. Malson. That is one of the reasons that on September 
11th, our system was, as reported by the Post and not by us, 
the only one that was really functioning in real time within 
the city. That is not including Maryland and Virginia. That was 
in real time within minutes of the attack on the Pentagon.
    We do bed checks. We had been doing bed checks once a week. 
But since the anthrax was discovered in the Hart Building, I 
started doing bed availability checks daily.
    Yesterday, for example, with the DCHA hospitals alone, 
those that I mentioned, which are also at the bottom of my 
testimony and you can see it at the bottom of the page, within 
that hospital grouping alone, as of 9 a.m. yesterday, we could 
have taken 119 major trauma patients and 310 minor trauma 
patients.
    We do that every day, and trauma is a very specific type of 
injury, which requires not only the bed, but also the people 
who are technically qualified to serve people who need those 
services. So we have to have the surgeons there and the 
radiologists and the others who can actually accommodate the 
needs of people who have those kinds of needs.
    So we are doing that daily now, and we will continue to do 
it until we begin to feel that we can stand down that level of 
alert.
    Mrs. Morella. You see, I have a concern that hospitals, 
because they compete, may not cooperate or share as much as 
they could, because of the specter of competition.
    So if you had an emergency in the District of Columbia, say 
anthrax, do you know where these people should go, which 
hospital; so that you have specialty hospitals and they are 
sharing and not all trying to have the equipment for 
everything?
    Mr. Malson. Absolutely, and let me describe two systems 
that compliment each other. In Maryland, for example, in your 
State, if someone dials 911, they get the local 911 responder, 
and an ambulance or a helicopter, as appropriate is dispatched 
to that victim.
    Once they get the victim, they come under the control of 
the Maryland Institute of Emergency Medical Services out of 
Baltimore. So where that victim is taken, the hospital that 
victim is taken to in Maryland is actually controlled by a 
central source throughout the State. It is probably one of the 
most advanced, if not the most advanced system of that type in 
the country.
    In the District, by comparison, when you dial 911, we are 
much more contained geographically and we do not need that kind 
of breadth in geography that Maryland has. But we are also able 
to dispatch our victims through the D.C. fire and EMS to the 
nearest appropriate facility.
    Now I would like to spend a moment on what constitutes 
appropriate. Appropriate may or may not be the closest 
hospital. If there is already a line of ambulances at the 
closest hospital, then you want to pass that one to go to the 
next hospital, because there may not be a line there, just to 
cite a single example of the kind of coordination that takes 
place all the time.
    So we have these systems in northern Virginia, and while I 
am not as familiar with their practices, there are best 
practices standards in the hospital industry, where we look at 
what each other does, and we try to adopt the best practices, 
and we tend to move in that direction.
    On the subject of competition, you struck two chords with 
me. The first is, you heard the first panel speak in terms that 
made my hospital salivate, if we could just get in line for a 
little bit of that money.
    But the truth of the matter is, Madam Chair, as you have 
seen and has everyone has seen on television for the last 3 
weeks, the first responders for bio-terrorism are our hospitals 
and private physicians' offices.
    That is where people go, when they think they have anthrax 
or are sick or afraid. Most of them are simply afraid that they 
may have it, and they want to be told by a physician that after 
a discussion about what they are feeling, that they are, in 
fact, safe.
    The import of my comment is that all levels of government, 
city, county, State, and Federal, have to recognize that in 
this era of bio-terrorism, the front line first responders are 
the private sector; the private physicians in their offices and 
our private hospitals. We have not, in this country, thought 
about that in that way.
    Forty years ago this Fall, I raised my hand and promised to 
defend this country when I joined the Navy. We have always 
thought of defending this country as something we did beyond 
the Atlantic and the Pacific.
    Now we are having to re-think that. We are on the front 
lines, here in the Nation's Capital and around the country. We 
are on the front lines in our private hospitals, and our 
physicians are, as well.
    How do we make sure that the Federal Government plays the 
proper role in assisting our private sector first responders to 
give the kind of care that we all expect them to give? They 
cannot do it on their own.
    Mrs. Morella. We will have one more quick round, after 
Congresswoman Norton asks her questions. Congresswoman Norton, 
thank you.
    Ms. Norton. Thank you very much, Mrs. Morella.
    I appreciate all your efforts in the wake of September 
11th. I have some urgent concerns with the GSA, in particular.
    We had a situation to occur where an agency put up a 
barricade and then had to take it down because of violation of 
D.C. law in effect.
    You say in your testimony, GSA has been coordinating with 
representatives of the District of Columbia City Council and 
the D.C. Protective Services.
    Mr. Moravec. Right, that is specifically in relation to the 
Ronald Reagan Building and the Wilson Building, right in that 
area.
    Ms. Norton. Oh, I see, and you also imply that you do not 
have a lot to say as to what an agency does itself. I mean, I 
can understand how an agency can make an ad hoc decision about 
barrier. That would not be a very permanent barrier, if they 
were making an ad hoc decision in the face of an impending 
emergency.
    But do you mean, somebody can, except for those two 
agencies that you named who had their own independent 
authority, that other agencies can go out and say look, I want 
this or that barrier up, and take these parking meters out, and 
that is what I say, because I am a Cabinet officer?
    Mr. Moravec. We advise them of the law, and we have and 
will continue to play a role, to the greatest extent possible, 
in reminding agency heads, for example, of what the laws are of 
the District of Columbia. We can be quite strident in giving 
our advice to them in that regard.
    But as a practical matter, for example, in the instances 
that you just mentioned, the action is taken, then we are 
informed, and then we intercede. So it is not as smoothly 
coordinated as we would like it to be.
    Ms. Norton. Mr. Moravec, can I ask that you send a memo to 
agencies, describing what the law is, and that we act pro-
actively in asking them to work through your offices? I think 
some of them have never had to do this before, so they are not 
aware of how they ought to proceed.
    Mr. Moravec. Well, we are working with them. I do not want 
to give you the impression that we are not.
    For example, we have had preliminary, not formal requests, 
but preliminary requests from several departments, to 
investigate whether they can remove parking meters on streets 
adjacent to their buildings. Obviously, that is not a 
possibility that we take lightly.
    We are working at GSA to establish guidelines as to when 
that may be appropriate. We also will be, in that case, trying 
to establish proper compensation for the District of Columbia, 
in the case where that were to take place. So we are giving 
guidance to agencies with regard to those kinds of requests.
    Ms. Norton. I just think there needs to be written 
guidance. I am very concerned and the city has been 
particularly concerned. You do not indicate that you 
specifically coordinate with any official of the D.C. 
Government for these.
    Mr. Moravec. No, but I would hasten to point out that we do 
have a very close working relationship, both personal and 
professional, with the Mayor, with deputy mayors, with the city 
administrator, and with a number of different department heads 
within the municipal government, at my level, as well as at the 
regional office level.
    Ms. Norton. In fact, I know that. I have no complaints 
about the way in which you deal with the D.C. government.
    I am asking for a point person in GSA to work with the 
District Government, when it comes to barricades, to help 
coordinate that.
    Mr. Moravec. That person is our Assistant Regional 
Administrator for the National Capital Region, Tony Costa.
    Mr. Cogbill. Ms. Norton.
    Ms. Norton. Yes.
    Mr. Cogbill. If I could interject here, the NCPC is also 
playing a role in this. We have a draft letter which will be 
going out probably early next week. It is going to all the 
Federal agencies, reminding them of their responsibility to 
come back to the NCPC for any approvals of barricades that are 
established along the streets.
    We have no jurisdiction within the street, and certainly 
with respect to removing parking meters. But we have a policy 
that is in place, and we intend to remind all of the Federal 
agencies of that, as early as next week.
    Ms. Norton. If agencies think they can continue to ignore 
what the GSA says or what the NCPC says, then we can make that 
a matter of law.
    We simply cannot allow ad hoc barricades to go out, agency 
by agency, or for them to say, well, you know, GSA really 
cannot tell us what to do; not at a time, when it seems to me 
that the NCPC has come up with a perfect way to do this.
    We can get you a barrier. We can get you a barrier that is 
attractive. We can get you a barrier in keeping with the 
LaFonte plan. That is the way to do it, unless you have an 
emergency, in which case, people ought to be able to operate 
immediately. But we are not independent actors in the Federal 
presence, and a Cabinet official does not have the 
jurisdiction, in my judgment, to make these decisions.
    If they think they have, then I think we can make sure that 
they understand they do not. I understand how your hands may be 
tied there. I understand how GSA has to work. Let me go on, 
because I know the time is fleeting.
    Mrs. Morella. On that, Congresswoman Norton, we may want to 
explore legislation. But in the meantime, you and I may want to 
sign a letter to him, asking him to reach out to the agencies. 
Would that help you to give you that kind of thrust?
    Mr. Moravec. That would help.
    Mrs. Morella. Thank you.
    Ms. Norton. So the agencies can then get a copy of that. 
Thank you, Mrs. Morella.
    Very serious concerns have been raised by the major public 
building when it comes to costs in a new building. That, of 
course, is the Ronald Reagan Building. We may have to have a 
specific hearing on the Ronald Reagan Building.
    We know that you have taken specific steps with respect to 
security in the Ronald Reagan Building, about which there were 
long-term concerns about security, long before September 11th.
    I also know, and I am in sympathy with GSA on the public 
parking, because I know that the public parking is necessary in 
order to pay for the building. But I do think that presents an 
extraordinary challenge to you.
    Let me ask you how you are dealing with this. Here is this 
target, virtually. It costs us almost $1 billion to put that 
building up. Yet, we need the public in it, and we need the 
public parking in it.
    It may not have been built architecturally with any of this 
in mind. But let me ask you if you can assure us that the 
public parking will be made available, and yet employees and 
others in the building will remain safe, because you have 
checked people as they go, or otherwise made sure that the 
public parking does not carry with it any dangers to people in 
that huge building?
    Mr. Moravec. First of all, it is GSA's security philosophy 
to tailor individual counter-measures and protocols with regard 
to the security of buildings on an individual basis to each 
building individually.
    The Ronald Reagan Building, not only because of its size, 
but because of its location and because of its iconic nature, 
if I may say so, represents a very special kind of situation.
    I can say to you that I am confident, not complacent, but 
confident that the most stringent security counter-measures and 
security procedures that we have available to us are in place 
at the Ronald Reagan Building.
    I have met personally with a number of the agency heads in 
that building. I think, for the most part, they have been 
reassured, when we have explained exactly what we are doing.
    That does not include the matter of public parking, which 
is the matter that you are raising. The problem, as you point 
out, is that the Ronald Reagan is, by law, a public building. 
Therefore, it is accessible to members of the public.
    Ms. Norton. No, no, that is not the definition. I mean, 
public parking is not available in the House of 
Representatives. Public parking is not available in many, if 
not most, Government buildings, because public parking is not 
used to help pay for the building. You have a special situation 
there.
    Mr. Moravec. It is really not a matter so much of revenue, 
as of the purpose of the building. The building is used for 
international trade shows, for cultural events, for 
entertainment events. It is a very important civic venue for 
these activities.
    Ms. Norton. It is a multi-purpose building. Understand, I 
am on your side. There has got to be public parking there. But 
the fact is, to even get into this building, I cannot even get 
into my own House of Representatives, without having cops look 
under my car to make sure there are no bombs and look into my 
trunk.
    Mr. Moravec. Congresswoman Norton, I do not know if you 
have tried to drive into the Ronald Reagan Building lately, but 
it is a pretty stringent lately, but it is a pretty stringent 
protocol.
    The car is stopped. It is surrounded. You are asked to show 
identification. A mirror is used to pass underneath the 
carriage of the car, to make sure there is nothing underneath. 
The trunk is opened.
    Ms. Norton. This is for members of the public, as well?
    Mr. Moravec. This is for members of the public, all 
vehicles. There is a test called the Barrenger test, which is 
applied to make sure there are no explosive devices on board. 
We have bomb sniffing dogs there.
    The Ronald Reagan Building has not only its only Security 
Director, who is probably one of the top people in our force, 
but its own police station present.
    So I want to assure you that every car that enters the 
Ronald Reagan Building is subjected to a very high level 
screening.
    Ms. Norton. That is very good news. We have had calls from 
employees saying that there was a difference between public 
parking and employee parking. If every car that goes in there 
is having the same treatment that we are getting in the House 
of Representatives, that is the best you can do.
    Mr. Moravec. Not since September 11th, I am pretty sure.
    Ms. Norton. Not since September 11th; that is very 
important.
    Let me ask Mr. Cogbill, the administration has responded to 
the cost items and essentially said, no way, because of two 
reasons. It says, we are not going to have that area around the 
White House dug up during this kind of war, and with all the 
call on revenue, we are not about to spend money on a tunnel, 
when there are other urgent matters. I mean, that is what they 
have said.
    When the administration, which has not been unkind to us, 
says that, I must tell you, I am putting the tunnel aside. And 
I am, as I said at the press conference yesterday, focusing on 
your very good recommendations that could be done now.
    Let me ask you, what are you doing or will you do to 
operationalize your recommendation to open E Street both ways? 
I mean, you recommended it. The idea stands in the air there. 
Nothing will happen unless somebody does something about it.
    What are you going to do about it? I take that one, because 
it is one of the easiest ones, because nobody has said that E 
Street was closed down because of security concerns. It was 
closed down for the same reasons that a whole bunch of places 
were closed down; just to make sure nothing else would happen.
    Every day that goes by, Mr. Cogbill, and I really emphasize 
this, it leads to permanent closing. It has not been opened in 
a year, yet. Unless there is somebody that keeps pushing, it is 
not going to be opened again. We will be back where we were 
after all the work we did to get E Street widened and opened 
two ways.
    The rest of it will be for nothing, because there will not 
be any pressure to open it. What will the NCPC do to do more 
than have a recommendation out there somewhere, hanging in the 
air, where nobody has to pick it up and move on it?
    Mr. Cogbill. The short answer is that we are in contact, on 
a regular basis, with our contacts at the Secret Service, as a 
result of the Task Force and the Commission hearings on this 
plan that we have just presented to you, yesterday.
    When this matter first occurred, we had very extensive 
discussions with the Secret Service about the whys and 
wherefores of the E Street closing. We were told, at that time, 
that it was different from Pennsylvania Avenue, and that there 
had been an Executive order that had been issued with respect 
to Pennsylvania Avenue, and that no such order had been issued 
or was anticipated to be issued with respect to E Street. 
Therefore, the closing was on a day-to-day basis.
    Based upon the comments that were made by you and 
Congresswoman Morella yesterday, I did contact Secret Service 
again to express to them our strongest indication and belief 
that we wanted that street opened, as is set forth in our 
report.
    Ms. Norton. And what did they respond, Mr. Cogbill?
    Mr. Cogbill. There response was, we are looking at it on a 
day-to-day basis.
    Ms. Norton. I am going to ask the Chair is she will sign 
off on a letter with me then, to say if they are not going to 
open it, then we need to know why. There is a clear and present 
danger that that not reopen.
    Mrs. Morella. I could not agree more. In fact, I was going 
to ask who has the ultimate authority? It is the President, is 
it not?
    Mr. Cogbill. Yes, ma'am, I think that is the ultimate 
authority.
    Ms. Norton. Maybe that is who we ought to write. This is 
really very important, given what you have recommended on 
Pennsylvania Avenue. I do not fault you on that. Nobody 
expected you to recommend otherwise.
    Let me finally ask you about my letter. I appreciate your 
response to my letter. On October 10th, I wrote to Chairman Nay 
of our House Administration Committee, and to Chris Dodd, the 
Chair of the comparable Senate Committee, actually trying to 
use your work as a model.
    Just let me quote a little bit from it. ``For several 
months, the National Capital Planning Commission has been 
preparing a major study and recommendations concerning the 
impact of Federal security measures around national memorials 
and Federal buildings in the city's core and around the White 
House. I would like to recommend coordination of efforts by the 
Congress, the executive branch, and the District of Columbia to 
assure appropriate information and action among the several 
entities that are hurriedly erecting barricades.''
    Then essentially, I am asking for everybody to get 
together, so you do not have the Congress and the Supreme 
Court, and these are two independent branches of government; so 
that under our Constitution, they can all decide for 
themselves.
    You responded to me on October 31st, and you sent copies to 
all the relevant congressional officials who would be involved 
in this matter. Then you say in here, ``We appreciate the 
participation of the Architect of the Capitol and the U.S. 
Capital Police in the workings of our Task Force.''
    You do not say that they were on your Task Force, but you 
have had some contact with them. What did they have to do with 
your Task Force, and how can you draw them operationally more 
into your work, so that we have them involved in your urban 
design recommendations that you put forward yesterday.
    Mr. Cogbill. Well, first we want to thank you for writing 
that letter, and offering us the opportunity to help with your 
process here on Capital Hill.
    We did have presentations by the Architect of the Capitol 
and by the Capital Police. They came to our meetings. They were 
part of the participating Task Force members that made 
contributions.
    Ms. Norton. But they are not listed as members of the Task 
Force. They are listed as people her were involved in the 
workings. But then as I read it, I do not read their names on 
the Task Force.
    Mr. Cogbill. Yes, ma'am, and I am looking at the book that 
we provided or the plan that we provided yesterday. We did list 
them as participating members. They were not voting members.
    Ms. Norton. I see.
    Mr. Cogbill. But they did participate.
    Ms. Norton. Go ahead; I am sorry.
    Mr. Cogbill. I was going to further say that we have 
followed up with the Architect of the Capital, in order to try 
to start the dialog with the Architect of the Capitol and the 
Capitol police, to try to move this matter forward, as you 
suggested.
    Ms. Norton. Thank you, and you will see what is being done 
around the Senate buildings. There is some sense of elegance 
there.
    If you look at Russell, where they are closed off there. 
But look at the other end of the street, where they have 
finished, there is a huge oval there. But the Architect has 
always had a sense of beautification here.
    I do not know anything about the barricades on C Street, 
except they must be temporary. Are they, Mr. Moravec?
    Mr. Moravec. I am not sure I understand; which one, 
specifically?
    Ms. Norton. If you go down C Street, there are these 
terrible things that Connie and I have to go through, and all 
staff have to go through. You have to go around. You have to go 
through a maze. They are uglier than anything we have ever seen 
before. They have got to be temporary.
    Mr. Moravec. Congresswoman Norton, I have been informed 
that those are within the purview of the Capitol.
    Ms. Norton. Well, I know they are.
    Mr. Moravec. I do not know whether they are temporary or 
not.
    Ms. Norton. I know they are. But you seemed to know whether 
they were temporary. That is the only reason I turned to you. 
You are absolutely right. A separate branch of Government, 
which is mainly the Congress, does not have to coordinate with 
the Executive, which is who you are, has done that.
    Mr. Moravec. Right.
    Ms. Norton. Mr. Cogbill, however, has to do with the 
Federal presence. He can steps, one, to understand what in the 
world is going on there and how long will it be that way, and 
whether they can be a part of the urban design plan that the 
NCPC has put forward.
    Mr. Moravec. I am proud the role that GSA is playing in the 
NCPC plan. I mean, unfortunately we are experts, since Oklahoma 
City, in how to design, build, and secure buildings in such a 
way that protects the occupants and visitors to the building, 
and at the same time, does not create an oppressive climate of 
fear.
    We really, if I do say so myself, have produced some really 
marvelous dynamic buildings that do no look like medieval 
fortresses.
    We have also learned a lot about, for example, if something 
is mundane, for example, as to how to make a bollard look 
beautiful. We are ready, willing, and able to work with the 
National Capital Planning Commission, as we have been, to give 
them the benefit of our expertise in this area.
    Ms. Norton. GSA has a problem, not of its own making. It 
has the same problem with barricades that it has with security.
    That is, if the Federal Government had dumped on you, as 
security problems have emerged, and they did not emerge on 
September 11th, matters that were never included in your 
mission; you were never to be the super security agency for the 
Federal Government. Yet, you had to make them secure.
    I agree that you have done very good things with buildings, 
and we are working with you now in the Department of 
Transportation building, on the ATF building, with setbacks and 
all the rest of it.
    But I have to say that one of the reasons that the NCPC has 
done the work it has done is that over and over again, people 
do say, I think justifiably, that the District of Columbia 
increasingly looks like an armed camp; that it looks like an 
ugly armed camp.
    The Chair has said we have got to make sure it does not 
become Ft. Washington. Obviously, she is very kind in the way 
she approaches it. [Laughter.]
    That is not anything I would blame on the GSA. That is why 
the NCPC work is so important, and I appreciate that. Was GSA a 
part of the Task Force?
    Mr. Cogbill. Yes, ma'am, and I would like to just comment 
on that. Specifically, the GSA was a very, very strong player 
on that task force and a very strong contributor.
    In fact, we were very sympathetic to their issues in 
dealing with their customers in clients, that come to them on a 
regular basis, asking for these security measures, and the 
coordination that was going on between GSA and the NCPC in 
trying to make sure that we do the best job that we can, in the 
amount of time that we have to make Washington safe; but at the 
same time, achieve our overall purpose of going back to a 
beautiful urban environment.
    Ms. Norton. The Urban Design Plan that NCPC revealed 
yesterday is the first time in 200 years that any work has been 
done that tries to coordinate security with the elegance 
associated with the LaFonte Plan. That is not the work of GSA. 
That is the kind of initiative that the NCPC, which is 
essentially the planning agency for the Federal Government, is 
supposed to do. It was its own initiative. It deserves great 
plaudits.
    Now I know that the Chair and I will be working together to 
make sure that plan does not simply lie on the table. It is a 
plan. It is just too valuable to simply lie there. That is why 
I asked you questions about E Street, in particular. If people 
see E Street open, they will understand that it is not just a 
plan.
    Madam Chair, if I could ask that my letter to Chairman Nay 
and Chairman Dodd, and the response of the NCPC be made a part 
of the record of this hearing.
    Mrs. Morella. So ordered.
    Ms. Norton. Thank you, Madam Chair.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 81954.078
    
    [GRAPHIC] [TIFF OMITTED] 81954.079
    
    [GRAPHIC] [TIFF OMITTED] 81954.080
    
    [GRAPHIC] [TIFF OMITTED] 81954.081
    
    Mrs. Morella. Thank you.
    Well, we are in accord on the results that we look for, and 
our congratulations to you on the work that you are doing and 
may you continue.
    I would like to ask Mr. Malson about the employees at the 
various hospitals. Are they expected to stay on the job, in the 
event of another emergency or terrorist attack, or something of 
that dimension?
    Mr. Malson. Yes, ma'am.
    Mrs. Morella. In an emergency evacuation, they do not 
evaluate?
    Mr. Malson. I understood your question initially a little 
differently. I thought you were asking me, would our hospital 
employees be expected to stay on the job if there were victims 
coming to them.
    Mrs. Morella. If there were a terrorist attack, such as 
September 11th.
    Mr. Malson. Oh, absolutely, yes.
    Mrs. Morella. They would?
    Mr. Malson. Yes.
    Mrs. Morella. Here is the second part of the question then. 
What if there were an emergency evaluation?
    Mr. Malson. There are many different types of evacuations, 
and there are many different types of terrorist attacks. Bio-
terrorism differs from most in that most attacks are 
essentially circumstances that go ``boom'' or ``bang'' and 
everyone is either a victim, a responder, or an observer. It is 
in an instant, and you know which category you are in.
    With bio-terrorism, and in many instances, chemical 
terrorism, you do not know which category you are in; which is 
why it is called terror. Because the fright exists for quite 
awhile. That extends not only to the people who are victims or 
may be victims, but also the responders, as well.
    That overlay also applies to evaluation plans, both within 
the hospitals, as well as within the city or the region.
    So in many ways, it sort of beds for more detail on your 
question, in order to be able to respond.
    Mrs. Morella. Well, what it beds for is the idea that 
education is needed and training.
    Mr. Malson. Absolutely.
    Mrs. Morella. Therefore, do you have training, in terms of 
bio-terrorism and the various faucets at the hospitals?
    Mr. Malson. Yes, we do. Our hospitals have many different 
kinds of plans, all hazards plans. We deal with floods, fires, 
hurricanes, as well as acts of war or natural events, yes, and 
we have to exercise those.
    Mrs. Morella. I have one final point. Do you think that at 
some point it would be very helpful if the ranking member and I 
met with the leaders of the various hospitals, the 
administrators?
    Mr. Malson. It would not only be helpful, but this is a new 
area. In defense of our Federal colleagues on the executive 
branch, they have been doing an enormous job in attempting to 
coordinate with us in the private sector under very difficult 
circumstances, and every day, they get better at it.
    But my 18 hospitals, with 26,000 employees within the 
District of Columbia, plus Bethesda Naval and Malcolm Grow at 
Andrews, are in constant need of daily contact with our State 
and local health departments and CDC. We are the front line 
troops, and we need to know what our commanders want us to do 
daily.
    Frequently, they are torn by the need to coordinate a 
Federal response, before they can come to our local responders 
with the plan of the day. We get better at it every day. We are 
no where near where we ought to be, and the frustration levels 
within our hospitals are extraordinary.
    So I can tell you unequivocally, yes. Our hospital chief 
executive officers, our medical directors, and I can get you as 
many people as you want, Madam Chair, and they would be 
delighted to share with you their needs, under these 
circumstances.
    Mrs. Morella. I would like to follow through with you, and 
maybe you could discuss this with the staff, and see what you 
think we could achieve, how it could be done, and what the idea 
would be.
    I just simply want to ask, if any of you have any statement 
you would like to make, particularly since you were here all 
morning and heard what everybody else had to say, is there 
anything you want to refute or you want to add?
    Mr. Malson. May I go first? The country has not yet come to 
grips with the fact that America's physicians and America's 
hospitals are on the front line for what has historically been 
a Federal responsibility. That is the defense of the homeland.
    Because we are on the front line, it is incumbent upon our 
legislators and our executives to figure out how to make the 
transition. As the Chair so eloquently put it, since we are the 
private sector, even our nonprofits are frequently in 
competition with each other.
    So the complexities are there, and they are very real. But 
yet, I cannot express how proud I have been of all of our 
hospitals, private, public, for profit, not for profit, and 
military hospitals, working together for the common good.
    But that does not address the need for resources. We have 
to figure out what those needs are, the extraordinary needs of 
these circumstances, and then how to adequately and 
appropriately fund them, in the context of most of the 
hospitals being in the private sector.
    Mr. Moravec. I would like to say that in the present 
climate, while we all need to do everything possible to protect 
our people, I would hope that we would allow emotion to ebb. 
Descartes once said that life is a comedy to those who think, 
and a tragedy to those who feel. We have all been doing a lot 
of feeling. I think it is very important for us to think 
rationally in the cold grey light of dawn, of what we are 
doing.
    Before we make long-term, expensive, irreversible 
decisions, I think it is very important that we, in sense as a 
society, get a grip, and I think that is especially important 
here.
    I do believe that the Federal Government has a leadership 
role to play in helping society deal with this new reality. The 
fact is that September 11th was, in a way, kind of the Oklahoma 
City for the private sector.
    GSA understands that responsibility. Among other things, we 
are convening a national symposium with the American Institute 
of Architects to involve people in focusing on the built 
environment in urban planning, in the wake of September 11th. I 
think we have a lot to add to that dialog, and we will be 
hopefully showing some leadership in that area.
    I would also just like to say that as a relatively recent 
convert from the private sector to public service, I just 
wanted to say how terribly proud I am of the women and men of 
GSA, and of the people in the Federal Government, during this 
very difficult time, when people need their Government more 
than they ever have before in my lifetime.
    Mrs. Morella. We are proud of them, too. You can see from 
the polling that the American public have the confidence in 
Government, and they have continued to increase. Thank you.
    Mr. Cogbill.
    Mr. Cogbill. Congresswoman Morella, when you started this 
proceeding today, you talked about working together. I think 
that is what I would say is the new word for the relationship 
between NCPC and the District of Columbia.
    We believe we are entering a new age of partnering with the 
District, and we want to push that forward so that we can work 
together to achieve these very important goals that are 
outlined in our Urban Design and Security Plan.
    You talked about the economics. I realize that is another 
day. But that is one of the things that our plan is designed to 
do, to make people feel comfortable in this environment, and 
make them want to come back.
    Certainly, as a resident of Richmond, VA, I love to come to 
Washington, and I always have. I intend to put my dollars into 
the economy, when I bring my wife and my daughter and my 
mother-in-law back here at the end of this month, to again do 
what we like to do, which is visit and be a part of our 
Nation's Capital and the glory that is this country.
    Finally, I would like to say thank you to both of you, for 
all of the help that you have given to NCPC, by providing 
leadership, by helping us to work through and to get it to the 
point where we are today, with this Urban Design and Security 
Plan. We look forward to implementing it.
    We will continue to work with you and with the other people 
in our Government, to continue to make Washington a beautiful 
place and a wonderful place to live, visit, and work.
    Mrs. Morella. Thank you very much, and we do look forward 
to continue working together with all of you. Thank you, Mr. 
Cogbill; thank you, Mr. Moravec; and thank you, Mr. Malson.
    As we adjourn our subcommittee hearing, I want to thank 
some great staff: Russell Smith, Heea Vazirani-Fales, Rob 
White, Matthew Batt, Shalley Kim, Earley Green, Jon Bouker, 
M.K. Hallahan, Howie Denis, Victoria Proctor, and, of course, 
my good friend, our ranking member, Congresswoman Eleanor 
Holmes-Norton.
    The meeting is adjourned.
    [Whereupon, at 1:47 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 81954.082

[GRAPHIC] [TIFF OMITTED] 81954.083

                                   - 

</pre></body></html>
